<html>
<title> - THE CURRENT SITUATION IN GEORGIA AND IMPLICATIONS FOR U.S. POLICY</title>
<body><pre>[Senate Hearing 110-736]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-736
 
   THE CURRENT SITUATION IN GEORGIA AND IMPLICATIONS FOR U.S. POLICY

=======================================================================


                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 2008

                               __________

         Printed for the use of the Committee on Armed Services




                   U.S. GOVERNMENT PRINTING OFFICE
47-548 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

   The Current Situation in Georgia and Implications for U.S. Policy

                           september 9, 2008

                                                                   Page

Edelman, Hon. Eric S., Under Secretary of Defense for Policy, 
  Department of Defense..........................................     4
Fried, Hon. Daniel, Assistant Secretary, Bureau of European and 
  Eurasian Affairs, Department of State..........................    14
Paxton, Lieutenant General John M., Jr., USMC, Director for 
  Operations, J-3, The Joint Staff...............................    27
Flynn, Brigadier General Michael T., USA, Director for 
  Intelligence, J-2, The Joint Staff.............................    36

                                 (iii)


   THE CURRENT SITUATION IN GEORGIA AND IMPLICATIONS FOR U.S. POLICY

                              ----------                              


                       TUESDAY, SEPTEMBER 9, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Bill 
Nelson, E. Benjamin Nelson, Bayh, Clinton, Pryor, Webb, Warner, 
Collins, Thune, and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; 
Peter K. Levine, general counsel; William G.P. Monahan, 
counsel; and William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; and David A. Morris, minority counsel.
    Staff assistants present: Brian F. Sebold and Breon N. 
Wells.
    Committee members' assistants present: Christopher Caple 
and Greta Lundeberg, assistants to Senator Bill Nelson; Andrew 
R. Vanlandingham, assistant to Senator Ben Nelson; Jon Davey, 
assistant to Senator Bayh; M. Bradford Foley, assistant to 
Senator Pryor; Gordon Peterson, assistant to Senator Webb; 
Sandra Luff and Samuel Zega, assistants to Senator Warner; 
Jason Van Beek, assistant to Senator Thune; and David Brown and 
Brian W. Walsh, assistants to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today the 
committee meets to receive testimony on the situation in 
Georgia. Our witnesses are Under Secretary of Defense for 
Policy, Eric Edelman; Assistant Secretary of State for European 
and Eurasian Affairs, Daniel Fried; Lieutenant General John 
Paxton, Jr., Director of Operations, J-3, Joint Staff; and 
Brigadier General Michael Flynn, Director for Intelligence, J-
2, Joint Staff.
    We hope our witnesses will provide some of the backdrop for 
the current disputes over South Ossetia and Abkhazia, which 
date back to the early 1990s following the breakup of the 
Soviet Union and are rooted in ethnic differences going back 
hundreds of years. We also need to understand the immediate 
causes in the months leading up to the outbreak of hostilities 
in early August, what led to the Georgian government's decision 
to attempt to assert military control over South Ossetia, given 
its strong ties to Russia, and what led Russia to respond with 
a disproportionate military offensive extending beyond South 
Ossetia.
    A related question is what did the United States and others 
do, or fail to do in the run-up to the conflict to try to 
prevent it. Did Georgian President Saakashvili believe that the 
United States would support his use of military force and, if 
so, was there any basis for his belief? Did the North Atlantic 
Treaty Organization's (NATO) promise of future admission for 
Georgia and Ukraine play a role in the Georgian decision? Did 
the United States do all it could to encourage Georgia to work 
within the existing peace settlement framework under the 
auspices of the Organization for Security and Cooperation in 
Europe, and discourage the use of force by the Georgians?
    I'm encouraged by the immediate response by the U.S. and 
our international partners, which presented a united front and 
sent clear signals to the parties involved. This morning it is 
reported that Russian President Medvedev and the European Union 
(EU) have agreed on a schedule for the pullback of Russian 
forces and the deployment of a 200-person EU observer force in 
the region. Under the agreement, Russian forces will begin to 
withdraw forces from undisputed parts of western Georgia in the 
next week, EU observers will be in place no later than October 
1, and Russia has agreed to withdraw from all positions in 
undisputed areas by no later than October 11.
    We need to look at the implication of all these events for 
our longer-term relationship with Georgia, Russia, and others 
in the region. We need to review all our options, including 
options that the Department of State (DOS) and Department of 
Defense (DOD) are looking at. This hearing begins Congress' 
review of the Georgia crisis and understanding its implication 
for Georgia's security, for the region, and globally.
    I hope our witnesses today can help us sort through these 
implications, and these include: What are the implications of 
Russia's military assertiveness for the United States' 
strategic relationship with Russia? What is the right balance 
to strike between signaling to Russia that its claims of a 
sphere of influence which override the sovereignty of its 
neighbors are unacceptable, while keeping the door open to 
Russian integration into the broader international community 
and working with Russia in areas where our strategic interests 
are aligned, such as preventing a nuclear Iran or 
counterterrorism efforts?
    How should the United States proceed in building 
relationships with Georgia and others in the region, including 
military ties? What does the crisis in Georgia mean for NATO's 
future, both in terms of reassuring NATO members like Poland 
and the Baltic States and for the applications of Georgia and 
Ukraine for Membership Action Plans (MAPs), the first step to 
be considered for full NATO membership? Finally, what are the 
implications for the control of oil and natural gas pipelines 
from Central Asia for the U.S. and Europe's energy security?
    We hope to gather from this hearing our witnesses' thoughts 
on how to step back from deeper confrontation while preserving 
principles of sovereignty and other important principles of 
international law. We're going to begin the hearing in open 
session, and at the conclusion of the open session we will 
reconvene in a closed session. The balance of my statement will 
be inserted in the record in full.
    [The prepared statement of Senator Levin follows:]

                Prepared Statement by Senator Carl Levin
    Welcome to our witnesses.
    Today the committee meets to receive testimony on the situation in 
Georgia.
    Our witnesses are:

        <bullet> Under Secretary of Defense for Policy Eric Edelman;
        <bullet> Assistant Secretary of State for European and Eurasian 
        Affairs Daniel Fried;
        <bullet> Lieutenant General John Paxton, Jr., Director for 
        Operations, J-3, Joint Staff;and
        <bullet> Brigadier General Michael Flynn, Director for 
        Intelligence, J-2, Joint Staff.

    I hope our witnesses can provide some of the backdrop for the 
current disputes over South Ossetia and Abkhazia, which date back to 
the early 1990s following the break up of the Soviet Union, and are 
rooted in ethnic differences going back hundreds of years. We also need 
to understand the immediate causes in the months leading up to the 
outbreak of hostilities in early August. What led to the Georgian 
Government's decision to attempt to assert control militarily over 
South Ossetia, with its strong ties to Russia? And what led Russia to 
respond with a disproportionate military offensive extending beyond 
South Ossetia?
    A related question is what did the United States and others do, or 
fail to do, in the run-up to the conflict to try to prevent it? Did 
Georgian President Saakashvili believe that the United States would 
support his use of military force, and if so, was there any basis for 
his belief? Did the NATO promise of future admission lo Georgia and 
Ukraine play a role in the Georgian decision? Did the United States do 
all it could to encourage Georgia to work within the existing peace 
settlement framework under the auspices of the Organization for 
Security and Cooperation in Europe (OSCE) and discourage the use of 
force by the Georgians?
    I was encouraged that the immediate response by the United States 
and our international partners, presenting a united front and sending 
clear signals to the parties involved. This morning it is reported that 
Russian President Medvedev and the European Union have agreed on a 
schedule for the pullback of Russian forces and the deployment of a 
200-person European Union observer force in the region. Under the 
agreement, Russian forces will begin to withdraw forces from undisputed 
parts of western Georgia in the next week. European Union observers 
will be in place no later than October 1, and Russia has agreed to 
withdraw from all positions in undisputed areas by no later than 
October 11.
    The immediate international response to the crisis has also 
included:

        <bullet> Demanding full compliance with the European Union-
        brokered six-point ceasefire agreement signed by the Russian 
        and Georgian Presidents. This includes renouncing the use of 
        force; ceasing all hostilities; withdrawing forces to pre-
        conflict positions, while allowing for certain additional 
        security measures; providing free access for humanitarian aid; 
        and convening international talks on the future status of 
        Ossetia and Abkhazia.
        <bullet> NATO Foreign Ministers have signaled to Russia, in 
        their August 19 statement on the situation in Georgia, that 
        with regard to the NATO-Russia relationship, ``we cannot 
        continue with business as usual.'' The NATO Foreign Ministers 
        called Russia's military response ``disproportionate,'' 
        ``inconsistent'' with Russia's peacekeeping role, and 
        "incompatible" with the principles on which the NATO-Russian 
        relationship has been based, including the Helsinki Final Act, 
        the NATO-Russia Founding Act, and the Rome Declaration.
        <bullet> The United States and the international community have 
        also taken steps to provide some reassurance to Georgia and our 
        other allies in the region in the face of Russia's overreaching 
        military action. NATO Foreign Ministers expressed their support 
        for a resolution in Georgia based on ``the principles of 
        Georgia's independence, sovereignty and territorial integrity 
        recognized by international law and U.N. Security Council 
        resolutions.'' NATO has established the NATO-Georgia 
        Commission, similar to the existing NATO-Ukraine Commission, to 
        provide a forum for addressing cooperative initiatives with 
        Georgia.
        <bullet> The provision of international humanitarian aid for 
        Georgia--including the delivery of over 2 million pounds of 
        humanitarian assistance under Operation Assured Delivery--
        signals to Georgia that we stand ready to assist in its 
        recovery from the conflict. I commend our soldiers, sailors, 
        and airmen in the U.S. European Command for their efforts in 
        this regard.
        <bullet> The international community has supported the need for 
        international monitoring of the zone of dispute. The OSCE has 
        agreed to increase its international monitors in Georgia to 
        100. The European Union is also discussing an international 
        monitoring force.

    Russia finds itself totally isolated because of its decision to 
recognize the independence of South Ossetia and Abkhazia. At the recent 
meeting of the Shanghai Cooperation Organization, even China and four 
Central Asian states declined to support Russia's actions in the 
Caucasus, instead urging a peaceful resolution of Russia's and 
Georgia's differences and reaffirming their commitment to the principle 
of ``territorial integrity.''
    We need to look at the implications of these events for our longer-
term relationship with Georgia, Russia and others in the region. We 
need to review all our options, including options the Department of 
Defense and the Department of Stale are looking at. This hearing begins 
Congress' review of the Georgia crisis and understanding its 
implications for Georgia security, for the region, and globally.
    I hope our witnesses today can help us sort through those 
implications. These include:

        <bullet> What are the implications of Russia's military 
        assertiveness for the United States' strategic relationship 
        with Russia? What is the right balance to strike between 
        signaling to Russia that its claims of a sphere of influence, 
        which override the sovereignty of its neighbors, are 
        unacceptable while keeping the door open to Russian integration 
        into the broader international community and working with 
        Russia in areas where our strategic interests are aligned, such 
        as preventing a nuclear Iran or counterterrorism efforts?
        <bullet> How should the United States proceed in building 
        relationships with Georgia and others in the region, including 
        military ties?
        <bullet> What does the crisis in Georgia mean for NATO's 
        future, both in terms of reassuring NATO members like Poland 
        and the Baltic states, and for the applications of Georgia and 
        Ukraine for Membership Action Plans, the first step to be 
        considered for full NATO membership?
        <bullet> Finally, what are the implications for the control of 
        oil and natural gas pipelines from Central Asia for U.S. and 
        Europe's energy security?

    We hope to gather from this hearing our witnesses' thoughts on how 
to step back from deeper confrontation while preserving principles of 
sovereignty and other important principles of international law.
    We will begin the hearing in open session and at the conclusion of 
the open session we will reconvene in closed session in SVC-217.

    Chairman Levin. Senator Martinez, did you want to give an 
opening statement?
    Senator Martinez. No, thank you very much, Mr. Chairman. I 
will hear from the witnesses and have questions later.
    Chairman Levin. Very good.
    Secretary Edelman. We welcome all of our witnesses. Thank 
you for being here.

 STATEMENT OF HON. ERIC S. EDELMAN, UNDER SECRETARY OF DEFENSE 
               FOR POLICY, DEPARTMENT OF DEFENSE

    Mr. Edelman. Chairman Levin, Senator Warner, and members of 
the committee, thank you for giving me the opportunity to 
appear before you today to discuss the Georgia-Russia conflict 
and the implications for security in the region. I'm 
particularly pleased to be here with my DOS colleague, 
Ambassador Fried, with whom I've worked on these issues for 
many years.
    With your indulgence, I have a longer written statement for 
the record that I'd like to submit and I'll try and keep my 
opening remarks brief, but I hope fairly comprehensive.
    We're here today to discuss a conflict that many of us had 
hoped would be avoided. Regrettably, however, despite intensive 
diplomatic efforts on the part of the administration to reduce 
tensions in the region, serious conflict did ultimately break 
out between Russia and Georgia, leading to a significantly 
disproportionate response by Russia, its military invasion of a 
sovereign country, and its efforts to undermine the 
democratically-elected leadership of one of its neighbors.
    All of these developments are deeply troubling, having 
called into question Russia's reliability as a partner, and 
pose serious challenges for Russia's neighbors, the United 
States, and our European allies. In response to the crisis, 
U.S. policy is to support Georgia's people, sovereignty, 
independence, and territorial integrity, support our allies in 
the region who feel threatened by Russian aggression, and 
demonstrate to Russia that its aggressive actions do not serve 
its national interest, will not be tolerated, and will not be 
cost-free.
    Let me begin by making it clear that the United States does 
not seek a new Cold War. As Secretary Gates has said on a 
number of occasions, one was enough. We have never seen our 
activities in the region as a 19th century contest with Russia 
for influence, nor do we believe that the Eurasian space should 
be subject to any external sphere of influence.
    In light of recent developments, we are now at a 
crossroads. Russia must decide how it wants to define its 
future relationship with the international community. Russia's 
recent actions have already diminished its standing in the 
world and have led to its growing isolation. The international 
community has resolutely rejected Russian aggression. Russia's 
future actions will define how it is viewed in the world and 
how the world moves forward with Russia. We hope that, on sober 
reflection, Russia will choose a different path, but our policy 
will respond appropriately to Russian actions.
    We'll continue to work with our western allies and our 
international partners to resolve the current crisis. U.S. 
cooperation with Europe has been the bedrock of the Euro-
Atlantic security structure for decades and we will pursue 
opportunities coming out of the current crisis to build a 
stronger and more capable Euro-Atlantic alliance to meet the 
range of 21st century challenges.
    South Ossetian and Georgian forces exchanged fire 
repeatedly in early August. We believe the Georgians conducted 
a military operation with what they may have believed were 
limited political aims of restoring Georgian sovereignty over 
South Ossetia, to eliminate the harassing fire from South 
Ossetian separatists on Georgian civilians. The use of 
artillery fire and multiple rocket launches into urban areas 
and into the proximity of Russian peacekeepers was lamentable 
and we do not condone that activity.
    But Russia used Georgia's ground operation as a pretext for 
its own offensive. Sweeping Georgian forces out of Tskhinvali, 
Russia quickly carried the operation into undisputed Georgian 
territory. Russia's two-pronged assault resulted in the 
retaking of all of South Ossetia and the Georgian-controlled 
Upper Kodori Gorge in the Abkhazia region.
    Within hours of Georgia's move into South Ossetia, 
thousands of hardened Russian combat troops and hundreds of 
tanks, vehicles, and dozens of planes were flooding into South 
Ossetia and conducting air and missile strikes into Georgian 
areas controlled by Tbilisi. It's clear that Russia's political 
and military leadership executed a preplanned operation to 
forcibly and quickly change the status quo in Georgia.
    Prime Minister Putin has tried to lay blame on the United 
States for ``arming Georgians to the teeth.'' The reality is 
something quite different. In 2002, in response to Russian 
accusations that Georgia was harboring Chechen rebels in the 
lawless mountainous border region of the Pankisi Gorge, the 
U.S. initiated the Georgia Train and Equip Program (GTEP). The 
follow-on program, the Georgian Sustainment and Stability 
Operations Program (SSOP), trained and equipped Georgian forces 
for peace support operations in Iraq. Three Georgian brigades 
were trained through the GTEP and the two SSOPs.
    Since the training, Georgia has been the highest per capita 
contributor of troops in the war on terror. To date, 7,800 
Georgian soldiers have deployed to Iraq since the beginning of 
Operation Iraqi Freedom, serving alongside U.S. forces. Over 50 
served in Afghanistan during the elections in 2004 in that 
country. Four Georgian soldiers have paid the ultimate price 
and 19 more have been wounded while serving in combat alongside 
U.S. and coalition forces in Iraq. Georgia is among our 
staunchest allies in the war on terror.
    While our defense and military relations with Georgia grew, 
to ensure transparency we provided regular briefings on GTEP 
and the SSOP activities to the Russians. Unfortunately, it 
appears that the Russians have been unable to move beyond their 
Cold War zero sum thinking, as the actions of Russian military 
units to systematically eviscerate Georgian armed forces appear 
in part to be a revenge action for these capacity-building 
efforts by the United States.
    DOD was deeply involved prior to and during the onset of 
conflict in an effort to convince leaders on both sides to de-
escalate and refrain from resolving their differences by 
military force. The Secretary of Defense spoke with President 
Saakashvili on numerous occasions, including in November 2007 
and again in March 2008 during bilateral consultations in 
Washington. Secretary Gates continued to speak with his 
Georgian and Russian counterparts during the crisis, urging 
restraint and stressing that all forces must move back to pre-
August 6 positions.
    The Chairman of the Joint Chiefs of Staff also spoke with 
his Georgian and Russian counterparts during this crisis. The 
consistent message was one of strategic patience and to find a 
peaceful resolution to the frozen conflicts, as Russia was 
clearly adding to the tension in order to provoke a Georgian 
response.
    Russia's actions have caused a reassessment, not just of 
U.S. policies towards Russia, but of the EU's, of NATO's, and 
beyond. The Shanghai Cooperation Organization (SCO), of which 
Russia is a member, refused to endorse Russia's unilateral 
recognition of South Ossetian and Abkhazian independence. In 
fact, it issued a statement reaffirming the principle of 
territorial integrity of states.
    The EU, under the leadership of the French presidency, met 
in an extraordinary session to criticize Russia's 
disproportionate military response, condemn Russia's 
recognition of South Ossetia and Abkhazia, and postpone 
meetings of the EU-Russia partnership agreement. The G-8 is 
issuing G-7 statements to let a fellow member know that 
Russia's actions are not condoned by the larger group.
    Georgia's NATO ambitions rest on fundamental shared values 
and a promise that NATO would keep its doors open to all 
aspirants ready to shoulder the responsibilities of membership. 
NATO has decided to further NATO-Georgian relations by 
establishing a NATO Georgia Commission.
    What are we doing today? First, we must support Georgia. We 
seek to stabilize the situation on the ground, help the country 
recover and thrive economically, preserve Georgia's 
sovereignty, maintain our support for its territorial 
integrity, and assist in rebuilding its military. After the 
outbreak of hostilities, our primary concern is to stop the 
shooting and to help the people of Georgia. Our humanitarian 
efforts by air, land, and sea have mitigated the human 
suffering and exhibited U.S. steadfast support for the Georgian 
people in their time of need.
    As we continue with our humanitarian relief, our primary 
effort now is to support Georgia and its democratically-elected 
government. Last week, the U.S. rolled out a $1 billion program 
in additional economic assistance to Georgia, which will help 
it weather the immediate needs caused by the current crisis. As 
we move forward, we look forward to working with the Congress 
on assistance packages that best frame the U.S. commitment to 
Georgia and regional partners at this critical time.
    Through September 8, 62 sorties have delivered more than 
1,145 short tons of humanitarian aid. The U.S.S. McFaul, the 
U.S. Coast Guard Cutter Dallas, and the U.S.S. Mount Whitney 
have delivered humanitarian supplies through the Georgian ports 
of Batumi and Poti.
    Georgia, like any sovereign country, should have the 
ability to defend itself and deter renewed aggression. DOD is 
sending an assessment team to Tbilisi later this week to help 
us begin to consider carefully Georgia's legitimate needs and 
our response. After assessment of these needs, we'll review how 
the United States will be able to support the reconstruction of 
Georgia's economy, infrastructure, and armed forces.
    For several years, the United States has played a 
significant role in preparing Georgian forces to conduct 
counterterrorism missions, first as part of an effort to help 
Georgia rid its Pankisi Gorge of Chechen and other extremists, 
and then as part of multinational coalition efforts. It's worth 
noting that on the night of August 7, Georgia's best-trained 
military forces, which represented 20 percent of its Active-
Duty Forces, were on duty in Iraq in support of the 
multinational coalition effort there. Georgia in fact fielded 
the third largest national contingent to the coalition, behind 
only the United States and the United Kingdom.
    We recognize, of course, that because of the events of the 
past month Georgia's own national security concerns may now 
mean it may be less able to contribute to such coalition 
efforts in the future. We'll be looking carefully and 
responsibly at Georgia's needs over the coming weeks and 
months.
    U.S. efforts to help Georgia will not be undertaken by us 
alone. NATO's North Atlantic Council decided on August 19th to 
develop a NATO Georgia Commission aimed at supporting Georgia's 
relations with NATO. NATO has also decided to assist Georgia in 
assessing the damage caused by Russian military action, 
including to the Georgian armed forces, and to help restore 
critical services necessary for normal public life and economic 
activity.
    NATO has already sent an advisory support team to Georgia, 
as well as its Special Representative for the Caucasus and 
Central Asia, and the North Atlantic Council Permanent 
Representatives plan to visit Georgia in the near future.
    The U.S. is also committed to support for our other friends 
and neighbors in the region, especially Ukraine, Poland, and 
the Baltic States, who have been threatened by Moscow. These 
countries must know that the United States is with them and, 
just as importantly, Russia must know the same.
    As we continue to support Georgia and our allies, we must 
review our relations with Russia. We will not continue with 
business as usual. We've suspended our bilateral military 
interaction with Russia and are in the process of a 
comprehensive review of all activities.
    The United States over the course of three administrations 
has sought to secure and sustain the independence, sovereignty, 
and territorial integrity of the new independent states of 
Eurasia. Concurrently, we worked to assist Russia in its 
integration into the global economic community, as well as to 
facilitate Russian cooperation with NATO in the new post-Cold 
War Europe. Our policies contributed to a Europe more united 
and integrated through either membership or close association 
with the EU and NATO.
    We must not and will not allow Russia's aggression to 
succeed in Georgia, nor must we miss an opportunity to link 
arms in solidarity with our partners and friends in the region 
in the face of aggression. The U.S. has a responsibility to 
support Georgia and we'll be doing just that in the weeks and 
months ahead, and we must show Russia through our words, our 
policies, and our actions that it serves Russia's best 
interests, as well as those of the west, for Russia to take 
steps to end its isolation and work toward a constructive 
framework of relations with the U.S. and Europe.
    Mr. Chairman, thank you for your time and I thank all the 
members for their patience, and I look forward to your 
questions.
    [The prepared statement of Mr. Edelman follows:]
               Prepared Statement by Hon. Eric S. Edelman
    Chairman Levin, Ranking Member McCain, members of this committee, 
thank you for giving me the opportunity to appear before you today to 
discuss the Georgia-Russia conflict and its implications for security 
in the region.
    We are here today to discuss a conflict that many of us hoped would 
be avoided. Regrettably, however, despite intensive, longstanding 
diplomatic efforts on the part of the administration to reduce tensions 
in the region, serious conflict did ultimately break out between Russia 
and Georgia the evening of August 7, leading to a significantly 
disproportionate response by Russia, its military invasion of a 
sovereign country, and its effort to undermine the democratically-
elected leadership of one of its neighbors. Russia's subsequent 
decision to recognize South Ossetia and Abkhazia as independent states 
was an additional misguided step aimed at challenging the territorial 
integrity of Georgia.
    All of these developments are deeply troubling, have called into 
question Russia's reliability as a partner, and pose serious challenges 
for Russia's neighbors, the United States and our European Allies.
    In response to the current crisis, U.S. policy is to: (1) Support 
Georgia's people, sovereignty, independence, and territorial integrity; 
(2) Support our Allies in the region, who feel threatened by Russian 
aggression; and (3) Demonstrate to Russia that its aggressive actions 
do not serve its national interest, will not be tolerated, and will not 
be cost free.
    I will seek today to outline some of the many challenges we face, 
describe how the current crisis developed, what we did to try to 
prevent it, and how we ought to proceed in responding to and 
reassessing our relationship with Russia.
    Let me begin by making it clear: the United States, despite 
Russia's recent actions, does not seek a new Cold War. As Secretary 
Gates has said on a number of occasions, one was enough. We have never 
seen our activities in the region as a 19th century contest with Russia 
for ``influence.'' Nor do we believe the Eurasian space should be 
subject to any external sphere of influence. All countries--the 
countries of the South Caucasus, Russia, and the transatlantic 
community--would benefit from a set of benign relations among all the 
players, great and small.
    We have spent 18 years working with the countries of the region, 
with Russia, and with our western European allies to promote mutual 
cooperation in the region. Three U.S. administrations throughout this 
period have also worked hard to support Russia's stated goal of 
integration into major western institutions.
    We are now at a crossroads. In light of recent developments, Russia 
must now decide how it wants to define its future relationship with the 
international community.
    Russia's recent actions have already diminished its standing in the 
world and have led to its growing isolation. The international 
community has resolutely rejected Russian aggression. Russia's future 
actions, including those it takes in the coming weeks and months in 
Georgia, will continue to define how it is viewed in the world and how 
the world defines and moves forward with Russia. We hope that on sober 
reflection Russia will choose a different path, but our policy will 
respond appropriately to Russian actions.
    We will continue to work with our western allies and international 
partners to seek solutions for resolving the current crisis. U.S. 
resolve and cooperation with Europe has been a bedrock of the Euro-
Atlantic security structure for decades. We are also consulting with 
our European friends as we consider options for responding to Russia's 
actions and begin the process of reassessing our relations with Russia.
    We will pursue opportunities stemming out of the current crisis to 
build a stronger and more capable Euro-Atlantic alliance able to meet 
the range of 21st century challenges.
    Our relationship with Russia has been an important focus for this 
administration and we have consistently sought to work with Russia on a 
wide range of areas of mutual interest. President Bush's commitment to 
a partnership with Russia has been based on a realistic assessment of 
these common interests, evidenced earlier this year by the Strategic 
Framework Declaration agreed to in Sochi, which was envisioned to be 
the basis for long-term cooperation on a wide range of strategic 
interests.
    While U.S. strategic interests dictate that we should keep the door 
open to the possibility of future cooperation with Russia along the 
lines we hoped for at Sochi, we should also remain open to the 
possibility that Russian intentions may not be what we understood them 
to be and that Russia may not, in the near-term at least, step back 
from its current course. This will demand patience and an ongoing 
commitment to stand firm in defense of our interests and those of our 
friends and Allies in the region.
                             war breaks out
    August was a volatile month in South Ossetia. After tit-for-tat 
attacks in South Ossetia in late July and early August, including 
roadside bomb detonations against South Ossetian authorities and an 
assassination attempt against the leader of the Georgian-backed 
provisional government in South Ossetia on July 3, South Ossetian and 
Georgian forces exchanged fire repeatedly during the week of August 4.
    This shelling increased substantially on August 5-6, as South 
Ossetian separatist forces trained their artillery on Georgian villages 
to the south and north of the separatist capital. A Georgian 
peacekeeping armored personnel carrier was destroyed on August 7.
    With fire constant from the South Ossetian side, Georgia sent its 
Reintegration Minister to South Ossetia for talks and President 
Saakashvili announced a unilateral cease-fire on August 7. Despite the 
cease-fire, Georgia asserted that the South Ossetians continued 
shelling Georgian peacekeepers and villages, even from behind positions 
occupied by Russian peacekeepers. Despite their mandate, Russian 
`peacekeepers' did not fulfill their duty to stop the exchange of 
shelling between both sides.
    That night, the Georgians announced that they were compelled to 
protect their citizens and began to suppress South Ossetian firing 
positions with ground operations. Georgia expanded operations, shelling 
the city of Tskhinvali. A Georgian ground operation quickly captured 
separatist controlled villages and much of the city of Tskhinvali.
    The Georgian leadership's decision to employ force in the conflict 
zone was unwise. Although much is still unclear, it appears the 
Georgians conducted what they thought was a limited military operation 
with the political aim of restoring Georgian sovereignty over South 
Ossetia to eliminate the harassing fire from the South Ossetian 
separatists on Georgian civilians. This operation was hastily planned 
and implemented.
    The use of artillery fire and multiple launched rockets into urban 
areas and into the proximity of Russian peacekeepers is lamentable, and 
we do not condone this activity.
    Russia used Georgia's ground operation as the pretext for its own 
offensive. Sweeping Georgian forces out of Tskhinvali, Russia quickly 
carried the operation into undisputed Georgian territory. Russia's two-
pronged assault, deploying forces not only through South Ossetia, but 
also into Abkhazia by land, as well as by sea and air, resulted in the 
retaking of all of South Ossetia, and the Georgian controlled Upper 
Kodori Gorge in the Abkhazia region. This combined arms military 
operation used Russian conventional, airborne, and special forces based 
in the North Caucasus Military District, as well as Airborne troops 
from Pskov and Ivanovo; naval forces from the Black Sea Fleet; 
irregular forces--South Ossetians, Cossacks and Chechens; and special 
forces.
    Within hours of Georgia's moves into South Ossetia, thousands of 
hardened Russian combat troops and hundreds of tanks, vehicles and 
dozens of planes were flooding into South Ossetia and conducting air 
and missile strikes into Georgian areas controlled by Tbilisi. Within 
days, Russian troops moved without hesitation into undisputed Georgian 
territory.
    From the beginning of the conflict, Russian defense officials told 
senior Department of Defense officials that Russia's aims were limited 
to protecting its citizens and peacekeepers and removal of Georgian 
forces from their post-August 6 positions. What became clear is there 
never seemed to be a limit to Russia's operational--nor strategic--
aims. It is clear that Russia's political and military leadership 
executed a pre-planned operation to forcibly and quickly change the 
status quo in Georgia.
                  history of u.s. military assistance
    Prime Minister Putin has tried to lay blame on the U.S. for 
``arming the Georgians to the teeth'', but the Georgian armed forces 
were never trained and or equipped by the U.S. to fight the Russians. 
Georgia has been a partner in the global war on terrorism since 
September 2001. In 2002, in response to Russian accusations that 
Georgia was harboring Chechen rebels in the lawless, mountainous border 
region of the Pankisi Gorge, the U.S. initiated the Georgia Train and 
Equip Program (GTEP), which sought to provide Georgia's security 
services with assistance in securing internal threats. This program 
implemented President Bush's decision to respond to the Government of 
Georgia's request for assistance to enhance its counterterrorism 
capabilities and address the situation in the Pankisi Gorge. This 
program was conducted openly and discussed in public documents.
    As the Georgian armed forces matured, it became obvious GTEP would 
need to evolve. The follow-on program, the Georgian Sustainment and 
Stability Operations Program (GSSOP), trained and equipped Georgian 
forces and command staff for peace support operations in Iraq. Three 
Georgian brigades were trained through the GTEP and the two Sustainment 
and Stability Operations Programs (SSOPs).
    The purpose of all follow-on programs to GTEP was to support 
Georgia's deployments to Iraq. SSOP and SSOP II included significant 
training for combat support and combat service support units, which 
allowed the three trained brigades to sustain themselves, have a higher 
degree of the North Atlantic Treaty Organization (NATO) 
interoperability, and be able to operate at the brigade level. In the 
summer of 2007, Georgia deployed a brigade of 2,000 personnel to Iraq, 
making it the third largest troop contributor and increasing its 
previous 858-person commitment there. Approximately $64 million was 
expended to support GTEP. Subsequently, approximately $124.2 million in 
Coalition Support funds was used to reimburse Georgia in support of 
SSOP, SSOP II and the latest deployment of Georgia's brigade to Iraq.
    Prior to the outbreak of hostilities, the U.S. was undergoing 
initial military training of Georgia's 4th Brigade for its eventual 
deployment to Iraq in winter 2008. The Brigade was being trained with 
funds apportioned by the Georgian government, which the U.S. would 
eventually have reimbursed. Approximately $35 million was to have been 
budgeted for this effort.
    Georgia has been the highest per capita contributor of troops to 
the war on terror. To date, 7,800 Georgian soldiers have deployed to 
Iraq since the beginning of OIF, serving alongside U.S. forces. Over 50 
served in Afghanistan during the Afghan elections in 2004. Four 
Georgian soldiers have paid the ultimate price and nineteen more have 
been wounded while serving in combat alongside U.S. and Coalition 
forces in Iraq. Georgia is among our staunchest allies in the war on 
terror.
    While our defense and military relations with Georgia grew, we 
maintained an active military-to-military relationship with Russia. To 
ensure transparency, we provided regular briefings on GTEP and GSSOP 
activities to the Russians and periodically informed senior Russian 
military officers about the scope and nature of our capacity building 
activities. Unfortunately, it appears that the Russians have been 
unable to move beyond their Cold War-era ``zero sum'' thinking, as the 
actions of Russian military units to systematically eviscerate the 
Georgian armed forces appear, in part, to be ``revenge'' for these 
capacity-building programs.
             consultations prior to and during the conflict
    The Department of Defense was deeply involved both prior to and 
during the onset of conflict in an effort to convince leaders on both 
sides to de-escalate and refrain from resolving their differences by 
military force. The Secretary of Defense spoke with President 
Saakashvili on numerous occasions, including in November 2007, and 
again in March 2008 during bilateral consultations in Washington. The 
Secretary of Defense continued to speak with his Georgian and Russian 
counterparts during the crisis, urging restraint and stressing that all 
forces must move back to pre-August 6 positions.
    The Chairman of the Joint Chiefs of Staff also spoke with his 
Georgian and Russian counterparts during the crisis. The latter 
explained to him that Russia had limited aims and would not seek to 
expand hostilities into areas controlled by the Government of Georgia. 
Russia's actions clearly contradicted these commitments.
    Deputy Assistant Secretary of Defense Fata made trips to Georgia on 
April 17, when tensions were extremely high following the Bucharest 
Summit and Russian moves in Abkhazia, and again on June 30. During 
these trips, as part of the wide array of U.S.-Georgia bilateral 
defense discussions, we urged Georgia to show ``restraint'' and not be 
provoked by Russia. The consistent message was one of strategic 
patience and to find a peaceful resolution to the frozen conflicts, as 
Russia was clearly adding to tension in order to provoke a Georgian 
response.
    As the conflict sparked, the Secretary of Defense spoke with his 
Russian and Georgian counterparts on Friday, August 8 and with 
President Saakashvili on August 9. The Secretary stressed that there 
were no military solutions to the conflict, as Georgia was likely to 
face an overwhelming Russian military action in response to any 
Georgian attempts to respond militarily in the separatist regions.
    Despite the movements, tension, and rhetoric, which we had seen 
regularly in previous years, we had little warning of an impending 
large-scale conflict until August 7. On the 7th, we had indications of 
Georgia's general mobilization, as Georgian troops being trained for 
their future deployment to Iraq did not show up for training. The speed 
with which the fighting ensued and the ferocity of the conflict 
escalated rapidly.
    There were no Department of Defense servicemembers involved in the 
conflict. The United States had 80 servicemembers training Georgian 
forces in country for future deployment to Iraq, as well as four 
service members who had participated in the July 15-31, in the Spirit 
of Partnership for Peace Immediate Response 08 exercise involving U.S., 
Georgian and other regional partner nations. It should also be noted 
that, at the request of the Georgian government, on August 10-11, the 
United States airlifted approximately 1,800 Georgian troops from Iraq 
back to Georgia, per a longstanding agreement with Georgia to provide 
transport for Georgian forces deployed to Iraq.
                         relations with russia
    The fact that this is the first large-scale use of Russian military 
forces outside its borders since the fall of the Soviet Union sends a 
chilling message. Russia's invasion of Georgia highlights a new 
aggressiveness in Russian foreign policy and a willingness to use 
military force to achieve its goals in the near abroad.
    By recognizing the Georgian territories of Abkhazia and South 
Ossetia, Dmitry Medvedev, Russia's president, made clear that Moscow's 
goal is to take advantage of the current conflict to create new facts 
on the ground. These actions contradict the message delivered by then-
President Putin to President Bush at Sochi in April, which indicated 
that Russia sought to work with the international community in 
addressing 21st century global challenges.
    In recent months, Russian officials have questioned the legality of 
Ukraine's sovereignty over the Crimea, openly stating the Black Sea 
Fleet will never leave the Ukrainian port of Sevastopol (in the 
Crimea), lease or not, and there are also press reports of Russia 
issuing passports to Ukrainian citizens in the Crimea--much like had 
been done in Georgia. This is a concern which we should follow closely 
in the months ahead.
    Russia's actions in Georgia have put its relations with the rest of 
the world in jeopardy. The U.S., European states, G7 members and others 
have asked what type of relationship Russia wants with the 
international community. There is agreement that Russian actions are 
leading it towards isolation, and it must reverse course--starting in 
Georgia.
    Russia's actions have caused a reassessment, not just of U.S. 
policies toward Russia, but of the European Union's (EU), of NATO's, 
and beyond. The Shanghai Cooperation Organization, of which Russia is a 
member, refused to endorse Russia's unilateral recognition of South 
Ossetian and Abkhaz independence; in fact, it issued a statement 
reaffirming the principal of territorial integrity of states. The EU, 
under French leadership, met in an extraordinary session to criticize 
Russia's disproportionate military response, condemn Russia's 
recognition of South Ossetia and Abkhazia, and postpone meetings on the 
EU--Russia Partnership Agreement. The G-8 is issuing ``G-7'' statements 
to let a fellow member know Russia's actions are not condoned by the 
larger group.
    As the statement on Georgia at the NAC has shown, the Alliance is 
united in its support for Georgia's territorial integrity, sovereignty 
and independence. Georgia has been a strong friend and partner of NATO.
    The NATO Alliance of the post-Cold War period was an alliance of 
democratic and Euro-Atlantic states which shared values. The NATO 
Alliance of today is an Alliance that will defend the values that 
shaped its foundation and support aspirants from external threats.
    Georgia's NATO ambitions rest on fundamental shared values and a 
promise that NATO would keep its doors open to all aspirants ready to 
shoulder the responsibilities of membership. Prior to the conflict, the 
Georgian people and government had shown their commitment, and the U.S. 
and many NATO Allies felt Georgia was ready to move to the next stage 
to MAP. The message we send in the coming weeks and months will be 
heard not only by Georgians but by all those in the region who look to 
the west as a source of security, inspiration and freedom. We should 
send the right message that Russian aggression will not impact the 
Euro-Atlantic aspirations of Georgia and Ukraine. NATO has decided to 
further NATO--Georgian relations by establishing a NATO--Georgia 
Commission. This body will help bring Georgia even closer to NATO 
membership.
    Although Russia has shown an apparent lack of concern for its 
international image in recent days by saying it does not care about the 
World Trade Organization and G-8 membership, it has isolated itself and 
will pay a diplomatic and economic price for its solitude.
    Of particular note, since the start of the conflict, Russia is 
hemorrhaging international investment and its stock market has lost 
significant value. Russia may believe it has gained a tactical victory 
by defeating the Georgian army. Yet this victory has made it more 
isolated, less admired and deeply resented by its neighbors.
                        what are we doing today?
    First, we must support Georgia. We seek to stabilize the situation 
on the ground; help the country recover and thrive economically; 
preserve Georgia's sovereignty; maintain our support for its 
territorial integrity, and assist in rebuilding its military.
    Our primary concern after the outbreak of hostilities was to stop 
the shooting and to help the people of Georgia. Our humanitarian 
efforts by air, land and sea have mitigated the human suffering and 
exhibited U.S. steadfast support for the Georgian people in their time 
of need.
    As we continue with our humanitarian relief, our primary effort now 
is to support Georgia, and its democratically-elected government. Last 
week, the U.S. rolled out a $1 billion in additional economic 
assistance to Georgia which will help it weather the immediate needs 
caused by the current crisis. As we move ahead, we look forward to 
working with Congress on assistance packages that best frame the U.S. 
commitment to Georgia and regional partners at this critical time. We 
also look forward to close collaboration with our multilateral 
development bank partners, the EU, and other international donors.
    The Department of Defense has been primarily focused on fulfilling 
the President's commitment to provide humanitarian assistance to the 
people of Georgia. Through September 8, 62 sorties have delivered more 
than 1,145 short tons of humanitarian aid. U.S.S. McFaul, U.S.C.G.C. 
Dallas, and U.S.S. Mount Whitney have delivered humanitarian supplies 
through the Georgian ports of Batumi and Poti.
    Georgia, like any sovereign country, should have the ability to 
defend itself and to deter renewed aggression. The Supreme Allied 
Commander, General Craddock, visited Tbilisi on August 21, meeting with 
high-level Georgian officials and surveying the damage to Georgia's 
infrastructure and military. The Department of Defense is sending an 
assessment team to Tbilisi later this week to help us begin to consider 
carefully Georgia's legitimate needs and our response. After 
assessments of these needs, we will review how the United States will 
be able to support the reconstruction of Georgia's economy, 
infrastructure, and armed forces. These steps will be sequenced and 
will continue to show U.S. support for Georgia's security, 
independence, and territorial integrity.
    For several years, the United States has played a significant role 
in preparing Georgian forces to conduct counterterrorism missions, 
first as part of an effort to help Georgia rid its Pankisi Gorge of 
Chechen and other extremists and then as part of multinational 
coalition efforts. It is worth noting that on the night of August 7, 
Georgia's best-trained military forces--which represented 20 percent of 
its Active-Duty Forces--were on duty in Iraq in support of the 
multinational coalition effort there.
    Georgia, in fact, fielded the third largest national contingent to 
the Coalition in Iraq, behind only the United States and United 
Kingdom. We recognize, of course, that because of the events of the 
past month, Georgia's own national security concerns may now mean it 
may be less able to contribute to such coalition efforts in the future. 
We will be looking carefully and responsibly at Georgia's needs over 
the coming weeks and months.
    U.S. efforts to help Georgia will not be undertaken by us alone. 
NATO's North Atlantic Council decided on August 19 to develop a NATO-
Georgia Commission aimed at supporting Georgia's relations with NATO. 
NATO has also decided to assist Georgia in assessing the damage caused 
by Russian military action, including to the Georgian Armed Forces, and 
to help restore critical services necessary for normal public life and 
economic activity. NATO has already sent an Advisory Support team to 
Georgia as well as its Special Representative for the Caucasus and 
Central Asia, and the North Atlantic Council Permanent Representatives 
plan to visit Georgia in the near future. Finland's Foreign Minister 
Alexander Stubb, the OSCE Chairman-in-Office, has logged many miles and 
worked tireless hours to help resolve the conflict. Stubb's performance 
has been extraordinary, he has been a star; and he has single-handedly 
assured that OSCE's crisis response mechanisms are fully engaged and 
operational.
    The U.S. is also committed to demonstrate support for other friends 
and partners in the region especially for those such as Ukraine, 
Poland, and the Baltic nations, who have been threatened by Moscow. 
These countries must know the United States is with them, and just as 
importantly, Russia must know the same.
    As we work to support Georgia and our Allies, we must also review 
our relations with Russia. We will not continue with business as usual. 
We have suspended our bilateral military interaction with Russia and 
are in the process of a comprehensive review of all activities.
                               conclusion
    Although Russia has ceased its offensive military operations, 
Russian forces continue to occupy parts of Georgia. Russia has not 
lived up to its stated obligations in the cease-fire agreement signed 
by Russian President Medvedev. We call on Russia to carry through with 
its stated promise to withdraw forces from areas outside the separatist 
territories, as was agreed upon in prior agreements and the September 8 
agreement in Moscow with French President Sarkozy. Russia's recognition 
of Abkhaz and South Ossetian independence, taken immediately after 
cessation of hostilities and as the conflicts' embers were still 
smoldering, suggests that Russian political and military aims toward 
Georgia were not limited to restoring the pre-war political-military 
status quo.
    The United States, over the course of three administrations, has 
sought to secure and sustain the independence, sovereignty, and 
territorial integrity of the new independent states of Eurasia.
    Concurrently, we worked to assist Russia in its integration into 
the global economic community as well as to facilitate Russian 
cooperation with NATO in the new, post-Cold War Europe. Our regional 
policies were not zero-sum in nature, nor did they prioritize one 
country over the other. We firmly believed, and still believe, that 
democratic nations along Russia's borders are in Russia's best 
interest. Our policies contributed to a Europe, more united and 
integrated through either membership or close association with the EU 
and NATO.
    Europe is freer, more prosperous and more secure than at anytime in 
its storied history. The policy of the United States in this region is 
unambiguous: we want to help the Nations of this region travel along 
the same path toward freedom, democracy, and market-based economies 
that so many of their neighbors in Europe have traveled.
    We must not, and will not, allow Russia's aggression to succeed in 
Georgia. Nor must we miss an opportunity to link arms in solidarity 
with our partners and friends in the region in the face of aggression. 
The United States has a responsibility to support Georgia and we will 
be doing just that in the weeks and months ahead. We must show Russia, 
through our words, our policies, and our actions, that is serves 
Russia's best interest, as well as those of the west, for Russia to 
take steps to end its isolation and work towards a constructive 
framework of relations with the U.S. and Europe.
    Thank you for your time and I look forward to your questions and 
hearing your concerns.

    Chairman Levin. Thank you very much, Secretary Edelman.
    Secretary Fried?

STATEMENT OF HON. DANIEL FRIED, ASSISTANT SECRETARY, BUREAU OF 
       EUROPEAN AND EURASIAN AFFAIRS, DEPARTMENT OF STATE

    Mr. Fried. Thank you, Chairman Levin and members of the 
committee, for the opportunity to discuss the policy 
implications of the Russian attack on Georgia. The statement I 
submitted provides detail and background to the conflict. In 
these comments, I will focus on our strategic response.
    While the causes of the conflict between Georgia and the 
disputed regions of South Ossetia and Abkhazia are complex, 
essential elements are clear. After a long series of 
provocations, Georgian forces moved into South Ossetia on 
August 7. Whatever questions we have about this decision, there 
is no justification for Russia's response, which was to cross 
international boundaries and attack Georgia. This was the first 
time since the end of the Soviet Union that Moscow has sent 
military forces to attack another country.
    The United States had urged Russia and Georgia numerous 
times, publicly and privately, to exercise restraint and to 
resolve their differences peacefully. After fighting broke out 
on August 7, our efforts were focused on halting the violence 
and bringing about a ceasefire. On August 14, Secretary Rice 
flew to France to consult with President Sarkozy, who is 
representing the EU in efforts to negotiate a ceasefire. The 
next day, Secretary Rice took the ceasefire agreement to 
Georgia to clarify its terms and to obtain President 
Saakashvili's signature. She succeeded.
    But Russia has yet to fully honor the terms of that 
ceasefire that President Medvedev also signed. Its forces 
remain inside Georgia. Worse, on August 26 Russia escalated the 
conflict when it recognized the independence of Abkhazia and 
South Ossetia, in defiance of numerous United Nations (U.N.) 
Security Council resolutions which Russia itself had endorsed. 
This irresponsible and destabilizing action has since been 
condemned by the EU, NATO, key allies, and the foreign 
ministers of the G-7 countries. Only Nicaragua and, I should 
add, the terrorist group Hamas have so far followed Russia's 
lead and recognized these breakaway regions.
    Our response to Russia's use of force to attempt to change 
international borders centers on three key objectives: First, 
we must support Georgia. We intend to help Georgia recover 
economically, restore its sovereignty and territorial 
integrity, and address its legitimate military needs. As an 
urgent priority, we support President Sarkozy's ongoing efforts 
to convince Russia to honor the ceasefire. Russian troops must 
leave Georgia and Georgian refugees must be allowed to return 
to their homes.
    On September 3, Secretary Rice announced a major effort to 
help Georgia in its economic reconstruction. $570 million, the 
first phase of a $1 billion economic support package, will be 
made available by the end of this year, including emergency 
direct support to the Georgian government. We will work closely 
with Congress on details of this assistance and hope that there 
will be strong bipartisan backing for a second phase of 
support, an additional $430 million to be provided in the 
future.
    Like any sovereign country, Georgia should have the ability 
to defend itself and to deter aggression. So we are working 
with NATO to address Georgia's military needs and we are 
working bilaterally. DOD has sent an assessment team to Tbilisi 
to help determine Georgia's needs and with our allies develop 
an appropriate response.
    Second, we must prevent Russia from drawing a new line 
through Europe. Russia should not be allowed to declare that 
certain nations belong to Moscow's sphere of influence and 
therefore cannot join the institutions of Europe and the trans-
Atlantic region. The United States does not believe in spheres 
of influence. Since the fall of the Berlin Wall, we have 
supported the right of every country emerging from communism to 
choose the path of its own development, including the 
international institutions with which it wants to associate. 
Russia should not be able to veto the right of sovereign 
countries to choose their own future.
    This was one of Vice President Cheney's messages when he 
visited Georgia, Abkhazia, and Ukraine last week. This is what 
``Europe, whole, free, in peace'' means. This vision is not 
directed against Russia. On the contrary, we have always 
believed that this vision should include Russia. But Russia's 
actions at home and abroad have been increasingly inconsistent 
with the common values that constitute the foundation of the 
Euro-Atlantic community. The current aggression against Georgia 
shows that Russia is making a different choice for itself.
    Finally, therefore, our strategic response must include 
longer-term consequences for our relationship with Russia. 
Since 1991, U.S. policy toward Russia was based on the 
assumption that Russia sought integration with the world and 
was, perhaps unevenly, moving toward greater democracy and the 
rule of law at home. Indeed, Russia expressed interest in and 
made progress toward becoming part of key institutions--the 
World Trade Organization (WTO), Organization for Economic 
Cooperation and Development, the G-7, G-8--and a partner with 
NATO and the EU.
    But with its invasion of Georgia, Russia has put these 
aspirations at risk. Russia has a choice. It can seek to be a 
nation at peace with itself and its neighbors, a modern 21st 
century nation that expresses its power and influence in 
constructive ways, or it can be mired in 19th century 
expansionist ambition, a nation whose standing in the world is 
based not on how much respect it can earn, but on how much fear 
it can evoke in others.
    Russia cannot have it both ways. It cannot benefit from the 
international institutions it wants to join and also invade its 
neighbor and use war to change international borders.
    We hope Russia chooses the right path. But for now we must 
contend with the Russia that exists today. We are guided by 
some general principles as we move forward. Russia should 
understand that the course it is on is already leading to self-
isolation. The United States and Europe must work together to 
respond to the challenge Russia has presented and to help 
nations on Russia's border resist Moscow's pressure even as 
they maintain their reforms at home.
    We must be steady, determined, and patient in our relations 
with Russia. Our response must keep open the possibility that 
Russia will reconsider its current course and we should keep 
doors open for cooperation on issues of mutual concern, such as 
Iran, counterterrorism, Afghanistan, nonproliferation, and 
other issues.
    But we must also be prepared, if Russia continues its 
aggressive course, particularly against neighbors who want 
closer security relations with us and with NATO. We do not seek 
and are not doomed to have a bad relationship with Russia. But 
until Russia's leaders change this current path, they and we 
may be in for a difficult period ahead.
    As we consider the implications of Russia's attack on 
Georgia, realism requires us to face what Russia has done and 
what we must do. We will support our friends and our 
principles. Russian aggression cannot be allowed to succeed. In 
time, Russia may realize that aggression against a small 
neighbor was a grave mistake. In the meantime, we need to 
maintain a framework for U.S.-Russian relations with the 
understanding that the perspective of today's Russian leaders 
will not last forever.
    We will resist Russian aggression where we must, working 
with our friends and allies, and we will keep open channels of 
communication and even cooperation where we can, for history 
teaches that patience and determination, frustrating perhaps at 
first, tend to prevail in the end.
    Thank you. I look forward to taking your questions. I would 
also like to say that I fully endorse the remarks of my 
colleague and old friend, Under Secretary Edelman.
    [The prepared statement of Mr. Fried follows:]
                Prepared Statement by Hon. Daniel Fried
 ``the current situation in georgia and implications for u.s. policy''
    Chairman Levin, Ranking Member McCain, members of the committee, 
thank you for the opportunity to discuss with you today the 
implications of Russia's attack on Georgia.
    On June 18, in testimony before the House Foreign Affairs 
Committee, I outlined a series of examples of increasing Russian 
pressure on Georgia and expressed concern that these activities risked 
igniting a wider conflict.
    Today, with regret, I must report to this committee that these 
concerns have been realized. Russia's intensified pressure and 
provocations against Georgia--combined with a serious Georgian 
miscalculation--have resulted not only in armed conflict, but in an 
ongoing Russian attempt to dismember that country.
    The causes of this conflict--particularly the dispute between 
Georgia and its breakaway regions of South Ossetia and Abkhazia--are 
complex, and all sides made mistakes and miscalculations. But key facts 
are clear: Russia sent its army across an internationally recognized 
boundary, to attempt to change by force the borders of a country with a 
democratically-elected government and, if possible, overthrow that 
government--not to relieve humanitarian pressures on Russian citizens, 
as it claimed.
    This is the first time since the breakup of the Soviet Union that 
Moscow has sent its military across an international frontier in such 
circumstances, and this is Moscow's first attempt to change the borders 
that emerged from the breakup of the Soviet Union. This is a troubling 
and dangerous act.
    Today I will seek to explain how we got here, how we're responding, 
and the implications for our relationship with Russia.
                       background to the conflict
    First, some history.
    The dissolution of empires is frequently violent, and the break up 
of the former Soviet Union was no exception. The collapse of the Union 
of Soviet Socialist Republics was marked by ethnically-based violence, 
especially in the South Caucasus. This involved clashes between Azeris 
and Armenians, Ossetians and Ingush, Russians and Chechens, Abkhaz and 
Georgians, and others. These clashes deepened into a series of wars in 
the early 1990s that ended without lasting solutions. Uneasy truces 
followed, and the conflicts in areas outside Russia became known as 
``frozen conflicts.''
    Two of the disputed regions lie within the internationally-
recognized territorial borders of Georgia: Abkhazia and South Ossetia.
    In 1992, following 2 years of armed conflict between Georgians and 
South Ossetians, an armistice was signed by Russian, Georgian, and 
South Ossetian leaders. The leaders also agreed on the creation of a 
tripartite peacekeeping force of 500 soldiers each from Russia, 
Georgia, and North Ossetia, a territory which lies within the borders 
of Russia. In practice, however, the North Ossetian peacekeeping 
contingent ended up being staffed by South Ossetians. Fighting in 
Abkhazia was brutal in those years and, as a result, large numbers of 
ethnic Georgians were expelled from their homes in Abkhazia; before the 
fighting, the ethnic Abkhaz had been a minority--under 20 percent--in 
Abkhazia.
    The next year, 1993, South Ossetia drafted its own constitution, 
and 3 years after that, in 1996, South Ossetia elected its own 
``president'' in an election in which mainly ethnic Ossetians--not 
ethnic Georgians--voted.
    In 2001, South Ossetia held another election and elected Eduard 
Kokoity as president, again with most ethnic Georgians boycotting the 
election. The following year, in 2002, he asked Moscow to recognize 
South Ossetia's independence and absorb it into Russia.
    Throughout this period, Russia acted to support the South Ossetian 
and Abkhaz leaderships, sowing the seeds of future conflict. That 
support was not only political, but concrete, and never more so than 
through the continued presence of Russian military forces, including 
those labeled as peacekeepers.
    Georgia emerged from these post-Soviet wars in weak condition. 
While then-President Shevardnadze deserves credit for helping end the 
fighting, Georgia could not find its feet; its economy remained weak 
and its government relatively ineffective. By the early years of this 
century, Georgia was in danger of becoming a failed state, with a 
deteriorating economy and a political system near collapse. In the 
autumn of 2003, President Shevardnadze acquiesced in an attempt by a 
local Georgian strongman--Ajaran leader Aslan Abashidze--to steal 
Georgia's parliamentary election. This triggered a popular uprising of 
hundreds of thousands of Georgians, leading to the so-called Rose 
Revolution and Mikheil Saakashvili's election as president.
    It is important to note that Eduard Shevardnadze was a close friend 
and partner of the United States and our North Atlantic Treaty 
Organization (NATO) Allies, enjoying near-heroic status. His ouster was 
not something the United States favored. Yet, when the Georgian people 
spoke and demonstrated their democratic right of peaceful protest, we 
did not stand in their way. We also did not encourage the protests. But 
Georgians' thirst for democracy ran its course, and we accepted and 
supported the outcome.
    Following his 2004 election, Saakashvili and his government moved 
swiftly and effectively to improve governance in Georgia, reducing 
corruption, pushing through economic reforms, and welcoming foreign 
investment. The Georgian economy started to grow rapidly. At the same 
time, Saakashvili made clear his intention that Georgia follow the path 
of other successful post-communist democracies and draw closer to, and 
eventually join, NATO and the European Union (EU). Although they have 
developed significantly in the past few years, Georgian democratic 
institutions remain weak and much work needs to be done to deepen 
democratic practices and continue economic reforms; authoritarian 
practices still exist alongside more democratic ones. We have made 
known, and made clear in public, our concerns with some of these 
democratic deficits. Still, Georgia appeared to be following the 
general contours of successful post-communist transformation we have 
seen since 1989 in Central and Eastern Europe.
    This progress, however, was paralleled by increasing tensions 
between Georgia and the Russian-supported breakaway territories.
    After the Rose Revolution, more clashes occurred between Georgians 
and South Ossetians, and between Georgians and Abkhaz. Then in 2006, 
South Ossetians voted for a split from Georgia in a referendum that 
was, again, largely boycotted by ethnic Georgians in South Ossetia. 
Although there were efforts to resolve the differences through 
negotiations, by late 2007 talks had essentially broken down.
    As Georgia's ambitions to draw close to Europe and the 
transatlantic community became clearer, its relations with Russia 
deteriorated. In the summer of 2006, tension increased between Tbilisi 
and Moscow, as Georgia arrested several Russian military intelligence 
officers it accused of conducting bombings in Gori. Moscow responded 
with a vengeance, closing Russia's only road crossing with Georgia, 
suspending air and mail links, imposing embargoes against exports of 
Georgian wine, mineral water, and agricultural goods, and even rounding 
up people living in Russia (including school children) with ethnic 
Georgian names and deporting them. At least two Georgians died during 
the deportation process.
    Russia's provocations escalated in 2007. In March 2007, what we 
believe were Russian attack helicopters launched an aerial assault, 
combined with artillery fire, on the Georgian Government's 
administrative offices in Abkhazia's Upper Kodori Valley. In August, 
Russian fighter jets violated Georgian airspace, then unsuccessfully 
launched a missile toward a Georgian radar station.
    This past year, although Moscow lifted some of the economic and 
transport embargoes, it further intensified the political pressure by 
taking a number of steps toward establishing an administrative 
relationship with both South Ossetia and Abkhazia. In March 2008, 
Russia announced its unilateral withdrawal from Commonwealth of 
Independent States (CIS) sanctions on Abkhazia, thus removing the CIS 
prohibition on providing direct economic and military assistance. Then 
in April, following the NATO Summit in Bucharest where NATO leaders 
declared that Georgia would one day be a member of the alliance, then-
President Putin issued instructions calling for closer official ties 
between Russian ministries and their counterparts in both of the 
disputed regions.
    Russia also increased military pressure as Russian officials and 
military personnel were seconded to serve in both the governments and 
the armed forces of the separatist regions. South Ossetia's ``prime 
minister,'' ``defense minister,'' and ``security minister,'' for 
example, are all seconded Russian officials. While Russian peacekeepers 
in Abkhazia were specifically mandated to facilitate the return of 
internally displaced persons and refugees, we saw no net return of 
Georgians to Abkhazia in over a decade.
    On April 20, the Russian pressure took a more ominous turn when a 
Russian fighter jet shot down an unarmed Georgian unmanned aerial 
vehicle over Georgian airspace in Abkhazia. Russia also increased its 
military presence in Abkhazia without the required consultation with 
the Government of Georgia. In late April, Russia sent highly-trained 
airborne combat troops with howitzers to Abkhazia, ostensibly as part 
of its peacekeeping force. Then in May, Russia dispatched construction 
troops to Abkhazia to repair a railroad link to Russia.
    During this buildup of tension, the United States frequently called 
on Moscow to reverse Russian actions and to participate with us and key 
European allies in a diplomatic process to resolve these conflicts. In 
June and July, for example, the U.N. Friends of Georgia group, which 
included the United States, Germany, the U.K., and France, urged fellow 
Friend Russia to engage in invigorated negotiations to advance 
Georgia's peace plan for Abkhazia. Yet Russia resisted, in one case 
even failing to show up for a meeting in mid-June that President 
Medvedev promised Russia would attend. In July, Georgia accepted the 
Western Friends' request that Russia and Georgia join the U.N. friends 
and the Abkhaz for discussions to reduce tension and advance the peace 
process. But once again Russia's Foreign Ministry refused to send a 
representative, this time saying that ``everyone was on vacation.''
    During this time, we urged Georgian officials both publicly and 
privately, on many occasions, to resist the temptation of any military 
reaction, even in the face of repeated provocations, which they were 
clearly facing. President Saakashvili did, to his credit, offer 
extensive autonomy to Abkhazia, including a guarantee that a Vice 
President of Georgia would be from Abkhazia. In July, Secretary Rice 
traveled to Tbilisi to seek to intensify diplomatic efforts to reduce 
the growing tensions. Working closely with counterparts from Germany, 
France, and the United Kingdom, she called for intensified diplomatic 
efforts on an urgent basis. While expressing support for Georgia, she 
also cautioned President Saakashvili against any temptation to use 
force to resolve these conflicts, even in the face of continued 
provocations.
    Unfortunately, Russia resisted these European-American efforts to 
intensify diplomatic efforts to stave off a wider conflict. After 
Russian military aircraft overflew Georgian airspace in July, in 
violation of Georgia's sovereignty, while Secretary Rice was visiting 
Tbilisi, President Saakashvili recalled Georgia's ambassador to Moscow.
    August began with two bomb explosions in Georgian-controlled 
territory in South Ossetia, injuring five Georgian policemen. On August 
2, a firefight broke out in South Ossetia that killed six South 
Ossetians and one Georgian policeman. On August 3, Russia declared that 
South Ossetia was close to a ``large-scale'' military conflict, and the 
next day, South Ossetia evacuated hundreds of women and children to 
Russia.
    On August 5, Moscow issued a statement saying that it would defend 
Russian citizens in South Ossetia. It is important to note that these 
so-called Russian citizens were mainly South Ossetians--that is to say, 
Georgian citizens--to whom Russia had simply handed out Russian 
passports. Russia has carried out this potentially destabilizing 
practice of distributing Russian passports to citizens of other 
neighbors from the former Soviet Union for years.
    On August 6, both Georgia and South Ossetia accused each other of 
opening fire on villages in the region.
                         the assault on georgia
    Throughout this period, the United States worked with both Georgia 
and South Ossetia, and with Russia, seeking to tamp down the growing 
conflict. On August 7 Georgia's minister for conflict resolution 
traveled to South Ossetia for negotiations, but his South Ossetian 
counterpart refused to meet with him and his Russian colleague failed 
to show up, claiming his car had broken down. On the night of August 7, 
those pressures rose to heights never before seen. Shooting broke out 
between Georgia and South Ossetian armed forces in South Ossetia. 
Georgia declared a ceasefire, but it did not hold. The Georgians told 
us that South Ossetians had fired on Georgian villages from behind the 
position of Russian peacekeepers. The Georgians also told us that 
Russian troops and heavy military equipment were entering the Roki 
Tunnel border crossing with Russia.
    We had warned the Georgians many times in the previous days and 
weeks against using force, and on August 7, we warned them repeatedly 
not to take such a step. We pointed out that use of military force, 
even in the face of provocations, would lead to a disaster. We were 
blunt in conveying these points, not subtle. Our message was clear.
    Georgia's move into the South Ossetian capital provided Russia a 
pretext for a response that quickly grew far out of proportion to the 
actions taken by Georgia. There will be a time for assessing blame for 
what happened in the early hours of the conflict, but one fact is 
clear--there was no justification for Russia's invasion of Georgia. 
There was no justification for Russia to seize Georgian territory, 
including territory well beyond South Ossetia and Abkhazia in violation 
of Georgia's sovereignty, or to attack and destroy infrastructure.
    But that is what occurred. On August 8, the Russians poured across 
the international border, crossed the boundaries of South Ossetia past 
where the conflict was occurring, and pushed their way into much of the 
rest of Georgia. Several thousand Russian forces moved into the city of 
Gori and other areas far from the conflict zone, such as Georgia's main 
port of Poti, over 200 kilometers from South Ossetia. Russia also used 
the fighting as an excuse to seize the last Georgian-held portion of 
Abkhazia, where there had been no fighting.
    The full story of that invasion and what occurred when the Russian 
forces dug in and allowed ``irregular'' South Ossetian militias to 
rampage through the lands Russian forces had seized, is still not fully 
known. We have received evidence of the burning of Georgian villages in 
South Ossetia. Russia's invasion resulted in a large number of 
internally displaced ethnic Georgians who fled South Ossetia to Tbilisi 
and other Georgian towns. Although Russian forces attempted to prevent 
access to the area by humanitarian aid workers, some Human Rights Watch 
researchers were able to reach the area and reported that the Russian 
military had used ``indiscriminate force'' and ``seemingly targeted 
attacks on civilians,'' including civilian convoys. They said Russian 
aircraft dropped cluster bombs in populated areas and allowed looting, 
arson attacks, and abductions in Georgian villages by militia groups. 
The researchers also reported that Georgian forces used 
``indiscriminate'' and ``disproportionate'' force during their assault 
on South Ossetian forces in Tskhinvali and neighboring villages in 
South Ossetia. Senior Russian leaders have sought to support their 
claims of Georgian ``genocide'' against the South Ossetian people by 
claiming that 2,000 civilians were killed by Georgian forces in the 
initial assault. Human Rights Watch has called this figure of 2,000 
dead ``exaggerated'' and ``suspicious.'' Other subsequent Russian 
government and South Ossetian investigations have suggested much lower 
numbers. We are continuing to look at these and other reports while we 
attempt to assemble reliable information about who did what in those 
days.
    The Ceasefire, Russia's failure to honor it, and recognition of 
South Ossetia and Abkhazia
    In the days that followed the Russian invasion, our attention was 
focused on halting the violence and bringing about a ceasefire. 
President Bush spoke with a number of European leaders as well as with 
President Saakashvili, President Medvedev and Prime Minister Putin in 
an effort to halt the fighting. Secretary Rice dispatched Deputy 
Assistant Secretary Matthew Bryza to Tbilisi to maintain contact with 
the Georgian leaders, working with Ambassador John Tefft. She herself 
worked with the Georgians and Russian Foreign Minister Lavrov, and with 
key Europeans including the French as EU President, and Finnish Foreign 
Minister Stubb, in Finland's role as Chairman-in-Office of the 
Organization for Security and Co-operation in Europe, to seek to halt 
the fighting.
    On August 14, Secretary Rice flew to France to consult with 
President Sarkozy, and then flew to Georgia to seek--and successfully 
obtain--President Saakashvili's signature on a ceasefire agreement. 
President Sarkozy had negotiated a six-point agreement which included 
the following:

         1. No resort to force.
         2. A definitive halt to hostilities.
         3. Provision of free access for humanitarian assistance.
         4. Georgian military forces must withdraw to the places they 
        are usually stationed.
         5. Russian forces must withdraw to their positions prior to 
        the outbreak of hostilities. While awaiting an international 
        mechanism, Russian peacekeeping forces will implement 
        additional security measures.
         6. Opening of international discussions on security and 
        stability modalities in Abkhazia and South Ossetia.

    The U.S. role in this process was central and timely. The Georgians 
had questions about the ceasefire agreement, so we worked with the 
French who issued a clarifying letter addressing some of Georgia's 
concerns. Secretary Rice conveyed the draft Ceasefire Agreement and the 
letter to President Saakashvili the next day. Based on these 
assurances, some additional assurances from the French, and the 
assurances of our support, President Saakashvili signed the ceasefire 
agreement on August 15.
    The Ceasefire Accord provides for the withdrawal of Russian forces 
from Georgia to their positions before the hostilities began, and 
allows for peacekeepers in South Ossetia, limited to the numbers 
allowed under previous agreements, to conduct patrols a few kilometers 
from the conflict zone in South Ossetia, not including any cities and 
not in ways that impede freedom of movement.
    Here is what the Ceasefire Accord does not provide: it does not 
establish a buffer zone; it does not allow the Russians to set up 
checkpoints around Georgia's ports or along Georgia's main highways and 
other transportation links; and it does not allow the Russians to have 
any forces whatsoever in places such as Poti, 200 kilometers from South 
Ossetia.
    This agreement was signed--and should have been honored 
immediately--by Russian President Medvedev, who had promised to French 
President Sarkozy Russia's immediate withdrawal upon President 
Saakashvili's signature of the Ceasefire. Yet Russia has still not 
lived up to the requirements of the Ceasefire Agreement requirements. 
In these circumstances, with Russia's having failed to honor the terms 
of the Ceasefire Agreement and its promise to withdraw its forces, 
Secretary Rice flew to Brussels for an emergency NATO meeting on August 
19 and, with our Allies, produced a statement in support of Georgia's 
territorial integrity and sovereignty--a statement that was stronger 
than anyone thought possible.
    Russia, still failing to honor the Ceasefire Agreement, again 
escalated the conflict on August 26 when it recognized the independence 
of Abkhazia and South Ossetia. It did so in defiance of numerous United 
Nations Security Council resolutions that Russia approved and that 
explicitly affirmed Georgia's territorial integrity. That the 
underlying separatist conflicts must be resolved peacefully, through 
international negotiations. This outrageous and irresponsible action 
was condemned by the EU, NATO's Secretary General, key Allies, and--in 
an unprecedented move--the foreign ministers of the G7 countries. Other 
than Russia and the South Ossetia and Abkhazia separatist regimes 
themselves, Nicaragua is the only country that has recognized these 
territories as independent countries.
    Following the EU Summit on September 1, President Sarkozy traveled 
to Moscow on September 8 to again seek Russia's compliance with the 
Ceasefire.
    This has been a fast-moving situation, but that is where we find 
ourselves today.
                         our strategic response
    In the face of this Russian assault on Georgia, the United States 
is pursuing three key objectives.
    First, we must support Georgia. We seek to stabilize the situation 
on the ground; help the country recover and thrive economically; 
preserve Georgia's sovereignty; maintain our support for its 
territorial integrity, and democracy; in the early stages of the 
conflict, Foreign Minister Lavrov asserted that Russia sought the 
removal of President Saakashvili, a democratically-elected leader. 
Russia has not succeeded.
    We are active, working with our European allies, in putting 
pressure on Russia to adhere to the Ceasefire. Russia must withdraw its 
military forces from Georgia, back to the lines of August 7; Russia is 
allowed limited patrolling rights by its recognized peacekeepers in the 
immediate vicinity of South Ossetia only until such time as an 
international mechanism is developed to take their place. So we are 
working fast with the EU and the OSCE to put in place just such a 
mechanism. We are also preparing to launch international discussions on 
South Ossetia and Abkhazia, again working closely with our European 
partners.
    We have already taken immediate steps to address Georgia's 
humanitarian needs. The United States has provided more than $38 
million worth of humanitarian aid and emergency relief, including food, 
shelter, and medical supplies, to assist the people of Georgia. U.S. 
aircraft made a total of 62 relief flights to Georgia from August 13 
through September 4, and on August 24 and 27, 115 tons of emergency 
relief commodities arrived in Batumi on the U.S.S. McFaul and the 
U.S.C.G.C. Dallas. In addition, a third ship, the U.S.S. Mount Whitney 
anchored in Poti on September 5, delivering an additional 17 tons of 
emergency relief commodities that will be delivered by the United 
States Agency for International Development nongovernmental 
organization partners. On September 3, the United Nations High 
Commissioner for Refugees (UNHCR) reported that 90,500 individuals have 
returned to places of origin, following the August conflict. However, 
UNHCR staff note that the number of returnees may be significantly 
higher due to the passage of time, as well as the difficulty of 
accurate, in-field returnee counts. According to UNHCR, approximately 
30,000 individuals may be displaced in the long term. We have been 
working with the Government of Georgia and seven relief organizations 
to ensure that our assistance gets to internally displaced people and 
other conflict-affected populations.
    On September 3, Secretary Rice announced a major effort to help 
meet Georgia's pressing humanitarian needs, repair infrastructure 
damaged by Russia's invasion, sustain commercial confidence, and 
restore economic growth. $570 million, the first phase of a $1 billion 
United States economic support package, will be made available by the 
end of 2008 and will include emergency budget support to the Georgian 
Government. We will be working extensively with Congress in the days to 
come to fine tune how the assistance will be delivered. We are hopeful 
that there will be strong bipartisan backing for a second phase of 
support, an additional $430 million to be provided in future budgets.
    Georgia, like any sovereign country, should have the ability to 
defend itself and to deter renewed aggression. The Department of 
Defense has sent an assessment team to Tbilisi to help us begin to 
consider carefully Georgia's legitimate needs and, working with our 
Allies, develop our response. For several years, the United States has 
played a significant role in preparing Georgian forces to conduct 
counterterrorism missions, first as part of an effort to help Georgia 
rid its Pankisi Gorge of Chechen and other extremists and then as part 
of multinational coalition efforts. NATO's North Atlantic Council 
decided on August 19 to develop a NATO-Georgia Commission aimed at 
supporting Georgia's relations with NATO. NATO has also decided to help 
Georgia assess the damage caused by Russia's invasion, including to the 
Georgian armed forces, and to help restore critical services necessary 
for normal public life and economic activity. NATO has already sent an 
advisory support team to Georgia and its Special Representative for the 
Caucasus and Central Asia. The North Atlantic Council Permanent 
Representatives plan to visit Georgia in the near future. Finland's 
Foreign Minister Alexander Stubb, the OSCE Chairman-in-Office, showed 
strong and effective leadership in working with French Foreign Minister 
Kouchner to lay the diplomatic foundation for the ceasefire agreement 
and activate the OSCE's crisis response mechanisms.
    Our second key objective is to prevent Russia from drawing a line 
down the center of Europe and declaring that nations on the wrong side 
of that line belong to Moscow's ``sphere of influence'' and therefore 
cannot join the great institutions of Europe and the transatlantic 
family. President Medvedev's recent statement of Russia's foreign 
policy principles implies such a claim.
    The United States does not believe in or recognize ``spheres of 
influence.'' Since 1989, the United States--under the leadership of 
President George H.W. Bush, President Clinton, and President George W. 
Bush--has supported the right of every country emerging from communism 
to chose the path of its own development, and to choose the 
institutions--such as NATO and the EU--that it wants to associate with 
and join. Each country must show itself ready to meet the standards of 
the institutions it seeks to join. That is its responsibility, and 
Georgia and Ukraine should be treated no differently than other 
European countries seeking to join European and transatlantic 
institutions.
    NATO and EU enlargement has been the institutional embodiment of 
the slogan, ``Europe whole, free, and at peace.'' A Europe whole, free, 
and at peace has been good for Europe, good for the countries on 
Europe's periphery, and, I would argue, good for Russia, which now 
faces the most benign set of countries to its west in all of its 
history.
    Europe whole, free, and at peace should include Russia; and 
throughout this process the United States and Europe sought to deepen 
ties with Russia in parallel with the growth of western institutions 
throughout all of Europe. But Europe whole, free, and at peace 
certainly does not mean that Russia gets to veto the right of 
independent countries to choose their future, and especially not 
through intimidation and threats. We want to respect Russia's 
legitimate interests. But we will not sacrifice small nations on the 
altar of great power expediency.
                implications for relations with russia.
    Finally, our strategic response must include the longer-term 
consequences of the invasion of Georgia for our relationship with 
Russia. Since 1991, three U.S. administrations have based policy toward 
Russia on the assumption that Russia--perhaps in fits and starts, 
imperfectly and in its own way--sought to become a nation integrated 
with the world: a ``normal nation,'' that is, part of the international 
system and its institutions. For its part, since 1991 Russia has 
asserted its own interest in becoming a part of the world and a part of 
international institutions. Russia had made progress in this regard, 
with American and European support.
    But with its invasion of Georgia, its continuing refusal to 
implement the Ceasefire it has signed, and its apparent claim to a 
``sphere of influence,'' Russia has put these assumptions under 
question and these aspirations at risk.
    Russia's behavior in Georgia recalls bad traditions of years we had 
believed behind us: 1979 and Afghanistan, 1968 and Czechoslovakia, 1956 
and Hungary, 1921 and Georgia, and numerous Russian imperial 
interventions in the 19th century. Russia's assault on Georgia follows 
other troubling signs: threats against Poland, including the threat of 
nuclear attack; suspicious poisonings and killings of journalists and 
those deemed ``undesirable'' persons such as Aleksandr Litvinenko, Anna 
Politkovskaya, and even President Yushchenko of Ukraine; the apparent 
use of energy for the purposes of political pressure against Ukraine, 
Lithuania and the Czech Republic; the concentration of political power 
in one party and focused in the Kremlin; and the creation in the state-
controlled Russian media of an ``enemy image'' of the United States. 
Many believe that there is a relationship between these troubling 
events and increasing government control of and pressure on what should 
be independent institutions in Russia, including the parliament, 
political parties, non-governmental organizations, the media, and the 
courts.
    We can speculate on the sources of such Russian behavior. We in the 
United States looked on the period of the 1990s as one of hope for 
Russian democratic reform and international integration in the 
immediate post-Soviet period. But Russians do not look back on the 
1990s with nostalgia, and certainly not with regret. They look on this 
decade as a period of chaos and impoverishment at home, and humiliation 
and decline of influence abroad. Most Russians welcomed what they 
believed was stability and greater international respect that then-
President Putin gained for Russia in the world. They welcome Russia's 
steady economic growth, even if many realize this is to a great extent 
no more than a function of high oil and gas prices; and they welcome 
what they see as Russia's return to a period of greater order at home 
and more respect abroad. They believe that it is only right that Russia 
should assert its interests in its immediate neighborhood.
    We should understand the sources of such views. But to understand 
them is not to accept or excuse them. It is not a mark of return to 
national greatness to have launched an invasion of a smaller, weaker 
neighbor, or to use language of threats and intimidation against other 
neighbors. Worse, in an echo of the Brezhnev Doctrine's right of 
intervention, some Russian officials have suggested a right to 
intervene on behalf of Russian citizens anywhere in the former Soviet 
Union and beyond. If Russia is simply creating these ``citizens'' by 
handing out Russian passports to non-Russians in neighboring countries, 
as it did in South Ossetia and Abkhazia, then this is a formula that 
can be abused, and is perhaps designed to be abused, to justify 
aggressive purposes.
    There is another and more constructive side to Russian official 
thinking. Earlier this year, Dmitriy Medvedev made an eloquent speech 
in which he presented his vision of a Russia governed on the basis of 
the rule of law, and fully integrated in the 21st century global 
economy. He spoke persuasively of a modern Russia, rooted in the rule 
of law--strong, to be sure, but strong in the measure of power for the 
21st century, not the 19th century. We in the west, and many Russians, 
took encouragement from his words--words that now ring hollow.
    Russia has a choice to make. It can seek to be a nation at peace 
with itself and its neighbors, a modern nation establishing its power 
and influence in modern and constructive ways, as President Medvedev's 
post-election vision suggested.
    Or Russia can chose to be a nation whose standing in the world is 
based not on how much respect it can earn, but on how much fear it can 
evoke in others. Russia cannot have it both ways. Russia, sadly, seems 
to be seeking to build national power based on attempts to dominate and 
the threat or use of force or pressure against its neighbors. By its 
actions in recent weeks, Russia has put itself in opposition to Europe 
and the transatlantic community with which it claimed partnership.
    We hope Russia, even now, can choose a better path. But we must 
also contend with the Russia that lies before us, and the signs are not 
good.
                      how shall the west respond?
    I have already spoken of our support for Georgia and our efforts to 
blunt Russian attempts to draw a new line, or curtain, through Eastern 
Europe. But we must also respond to Russia itself.
    First, we must help Russians understand that the course they are 
now on is already leading to self-isolation in the world. Russia has 
been condemned by the EU, the Chair of the OSCE, and for the first time 
ever by its G8 partners, by the foreign ministers of G7 countries. If 
Russia continues its current course of defiance and failure to honor 
its agreements, this self-isolation will deepen, with profound 
implications for Russia's relations with key international 
institutions.
    Second, the west must work and act together. The United States and 
its European allies have responded in coordinated fashion to the 
Georgia crisis, and must continue to do so. The United States and 
Europe working together will have far more impact on Russia than we 
will have by working alone. Europe and the United States also need to 
show solidarity and determination to resist Russian pressure on other, 
smaller European nations on its border, whether this takes the form of 
military threats, cyber attacks, or economic intimidation using energy 
as a weapon. We shall consider specific steps thoughtfully and in light 
of Russia's behavior in the coming weeks, including whether it adheres 
to the Ceasefire Accord or if it continues to fail to comply with its 
terms, as Russia is now doing.
    Third, as we look ahead at our relations with Russia, we must be 
steady, determined, and patient. It will take time for the Russian 
people and their leaders to comprehend the cost of Russia's growing 
isolation. The recent flight of billions of dollars from Russian equity 
markets is only an initial sign of the costs to Russia over time of its 
behavior.
    Fourth, our response must keep open the possibility of Russian 
reconsideration of its current course, and keep doors open for 
cooperation. There are areas where we and Russia have overlapping 
interests--this was true before Russia invaded Georgia and it is still 
true now, whether it is in Iran, counterterrorism, Afghanistan, or 
other issues.
    Fifth, we must also remember that Russia may choose to continue its 
aggressive course, particularly against neighbors who have aspirations 
for closer security relations with us and NATO. Prime Minister Putin 
has questioned Ukraine's territorial integrity as well as Georgia's, 
and President Medvedev has threatened to use ``military means'' to stop 
Poland's plans to host missile defense components. Russia will be ill-
advised to pursue a course of continued threats against its neighbors. 
As British Foreign Secretary David Miliband put it, we do not want a 
new Cold War; Russia has a responsibility not to start one.
    We do not seek, and are not doomed to have, a bad relationship with 
Russia. Russia's development in the 21st century will require it to 
have a cooperative, not antagonistic, relationship with Europe, the 
United States, and the developed world. For better or worse, Russians 
value their place in the community of European nations. Moreover, 
Russia must contend with its serious problems at home: a shrinking and 
aging population, a lopsided economy, and now international isolation. 
Russia is poorly positioned to sustain a bad relationship with Europe 
and the United States.
    Wiser heads in Russia understand this, and may themselves realize 
that long-term self-isolation will not prove to be a successful 
strategy for Russia. The Russian economy will require investment, 
access to capital and technology, and, over time, greater adherence to 
the rule of law than is the case today. Investors will make their own 
decisions. But they generally seek a stable relationship with their 
economic partners and a predictable climate for their investments. The 
message Russia has sent by its recent actions is that this kind of 
stability and predictability can no longer be assumed.
    Russia is not doomed to authoritarianism at home and aggression 
against its neighbors. Those are the choices that Russia's leaders are 
currently making. Unless they change their path, we are in for a 
difficult period ahead.
    But even in the Soviet period, we maintained both channels of 
communications with the Russians and a relationship in hope of better 
times. In time, our relations did improve as the internal weakness of 
the Soviet system became more obvious and the west stood firm against 
Soviet expansionism.
    As we consider the implications of Russia's attack on Georgia, 
realism requires us to face clearly what Russia has done and what we 
must do. We must support our friends and our principles. Russian 
aggression cannot be allowed to succeed; in time, if we are successful, 
the Russians may come to realize that a one-sided victory over a small 
neighbor's military was a grave mistake. In the meantime, our 
responsibility for the future requires us to maintain the basis of a 
framework for U.S.-Russian relations, given the knowledge that the 
perspective of today's Russian leaders will not last forever. So let us 
prepare to resist Russian aggression where we must, working with our 
friends and allies; and let us be mindful of--and keep open--channels 
of communication where we can, for history teaches that the aggressor 
may strike and win a first round, but seldom wins the last.
    Thank you. I look forward to taking your questions.

    Chairman Levin. Thank you very much, Secretary Fried.
    General Paxton and General Flynn, I understand you do not 
have opening statements. Is that correct?
    General Paxton. That's correct, Mr. Chairman.
    Chairman Levin. Thank you.
    What we'll do is have an 8-minute round of questions for 
the first round, and when I call upon Senator Warner he'll have 
some additional time for any opening statement that he might 
wish to add.
    Let me first ask you, Secretary Edelman and Secretary 
Fried, about the warnings that were given to Georgia. There was 
a great deal of public statements about these warnings that 
were given to Georgia, but there's also an allegation that 
there was some mixed signals given to Georgia about what our 
response would be.
    This morning you both very clearly indicated that we told 
the Georgians many times that they should not use military 
force, or initiate any ground operations. I want to start with 
you perhaps, Secretary Fried, because you apparently had some 
of these conversations. Would you outline for us when and where 
those conversations took place where we urged the Georgians, 
warned the Georgians that they should not initiate any ground 
action against South Ossetia, or into South Ossetia?
    Mr. Fried. Mr. Chairman, for many months I, my colleagues, 
and Secretary Rice had told the Georgians clearly and 
unequivocally that any military action initiated by them would 
be a mistake and lead to a disaster. We were not terribly 
subtle. We were not indirect. We were quite clear and 
occasionally blunt.
    In the spring, during a period of tension over Abkhazia, my 
colleagues and I made these points repeatedly to the Georgian 
leadership. Secretary Rice, during her trip to Tbilisi in July, 
made these points directly to President Saakashvili. As tension 
in South Ossetia mounted in the first week, the first days of 
August, we repeated these points and made them. On August 7, as 
tensions were mounting, we told the Georgians that they should 
not fall victim to provocations, that, whatever their fears and 
concerns, a military response would be a mistake.
    It is true that we gave them warnings. It is not true that 
we presented them with mixed signals.
    Chairman Levin. In the August warnings prior to August 7, 
can you just be more specific? When and where were those 
warnings given, to whom, and by whom? Were you involved?
    Mr. Fried. I was involved personally.
    Chairman Levin. Over the phone, or----
    Mr. Fried. Sometimes over the phone, sometimes in Tbilisi 
when I would travel there.
    Chairman Levin. Before August 7?
    Mr. Fried. Yes.
    Chairman Levin. In August?
    Mr. Fried. In August over the phone. The weekend--let's 
see; that would have been August 1. The weekend before, the end 
of July, first days in August, about South Ossetia.
    Chairman Levin. These were over the phone?
    Mr. Fried. These were over the phone and in person with the 
Georgian ambassador. They were also when I traveled to Tbilisi 
with Secretary Rice, and also on my own. It was a regular 
feature of my discussions that I would urge the Georgians not 
to fall victim to any provocations.
    Chairman Levin. What was their response?
    Mr. Fried. Their response was: that they knew that a 
military operation would be a disaster, but that if their 
villages were attacked and their people were under assault they 
would be under grave pressure to do something. To which I would 
invariably reply: That's not a good enough reason to make a 
wrong decision.
    So the conversations were blunt, they were clear. It is 
true that the Georgians felt themselves to be and in fact were 
under severe provocation. Their villages were attacked. A 
Russian plane had shot down a Georgian drone over Abkhazia. 
Russian-led forces came into firefights with Georgians in 
Abkhazia. There were numerous provocations.
    We also had conversations with the Russians. But 
nevertheless, our messages were not mixed; they were quite 
clear.
    Chairman Levin. Now, you both talked about the importance 
of there being consequences to the Russian aggression here 
against Georgia, and I'd like to know what are some of the 
consequences which are being looked at? What options are on the 
table? For instance, is keeping Russia out of the WTO on the 
table? Is that being looked at as a consequence? Secretary 
Edelman?
    Mr. Edelman. Mr. Chairman, if I might, before going to 
answer that question I'd like to give a little more precision 
on DOD contacts with Georgians that paralleled what Secretary 
Fried described to you about his own efforts and those of his 
colleagues and Secretary Rice. I mentioned in my oral statement 
that Secretary Gates had met with and spoken to President 
Saakashvili in both the fall 2007 and the spring 2008. But we 
had other contacts as well. My colleague, Deputy Assistant 
Secretary Dan Fata, who is sitting behind me, traveled to 
Georgia in mid-April after the Bucharest Summit, when tensions 
were particularly high over Abkhazia. He returned at the tail 
end of June, and beginning of July, and his visits are part of 
an ongoing bilateral defense dialogue that we have with 
Georgia, and we have consistently urged Georgia to show 
restraint, to avoid provocations.
    Those conversations continued. Secretary Gates, during the 
crisis weekend, was on the phone with his defense counterpart, 
but also with President Saakashvili, and I think we were 
sending a very consistent message.
    Chairman Levin. What are the options you're looking at? For 
instance, I want to just start specifically, is keeping Russia 
out of the WTO an option being looked at?
    Mr. Edelman. I think in general terms, Senator Levin, the 
major consequence to Russia is the isolation it has imposed on 
itself by taking these actions. You can see it in cases like 
the WTO, where for instance Georgia is a member and therefore, 
because the WTO operates by consensus, there's a natural break 
on that process.
    We have traditionally been Russia's biggest supporter in 
the WTO. But I think it's things like that. It's questions like 
how the G-7 will continue, will the G-8 continue to operate in 
the future? Those are all things that are on the table now. But 
I defer to Secretary Fried because those are more in the 
diplomatic arena than in mine.
    Chairman Levin. I want to go through a list of items as to 
what we are looking at in terms of consequences. Is keeping 
Russia out of the WTO one of those that you're looking at, Mr. 
Secretary? Just kind of quickly, yes, no, or maybe?
    Mr. Fried. We're looking at all of the range of options.
    Chairman Levin. Does that include that?
    Mr. Fried. Nothing is off the table. We're looking at 
everything.
    Chairman Levin. That's fine. Now, what about working with 
Russia in terms of pressuring Iran to stop their enrichment 
program? Are we thinking about not working with Russia in that 
area? It's a critical area in terms of the world's security to 
keep Iran from getting their enrichment program. Are we 
seriously thinking about no longer trying to work with Russia 
to stop Iran from enriching uranium?
    Mr. Fried. We would like to be able to continue to work 
with Russia.
    Chairman Levin. Are we saying to Russia, we may not 
continue to work with you?
    Mr. Fried. We have not sent that signal.
    Chairman Levin. Is that on the table?
    Mr. Fried. There are areas where we have common interests 
with Russia. We had these common interests before August 8th 
and we have them now.
    Chairman Levin. Those, therefore, are not on the table to 
be changed, is that fair? Look, these are important, 
complicated issues; I think it is important that we not send a 
signal, for instance, to Russia that we're no longer interested 
in working with her to stop Iran from getting nuclear weapons.
    Mr. Fried. Quite right. As I said, it remains in our 
interests to work with them. But we also want to look at the 
totality of the relationship, and to draw conclusions. But the 
point is--your point, sir, is an accurate one. Working with 
Russia on Iran remains in our national interest.
    Chairman Levin. Hopefully then it is not on the table.
    Mr. Fried. As I said, it remains in our national--it 
certainly remains in our national interest.
    Chairman Levin. To?
    Mr. Fried. To continue to work with them.
    Chairman Levin. Thank you. My time is up.
    Senator Warner, obviously take whatever time you'd like in 
terms of your own opening statement, plus your 8 minutes.
    Senator Warner. Thank you, Mr. Chairman. I'll move along. 
We have a number of members here anxious to talk.
    My first question to both Secretary Edelman and Secretary 
Fried, whoever is best qualified to answer it, at any time did 
the President indicate to the Secretary of Defense that we 
should put our military units on alert to engage actively in 
the repelling of the Russian forces and aiding Georgia?
    Mr. Edelman. No, I do not believe that is the case, sir.
    Senator Warner. Do you agree with that, Secretary Fried? In 
other words, the use of force by the United States is not an 
option that was ever on the table then or now?
    Mr. Fried. I believe that to be the case. It was not.
    Senator Warner. Who knows? You believe, you believe. Who 
knows?
    Mr. Fried. To the best of my knowledge, this option was 
never discussed. I never heard it.
    Mr. Edelman. Senator Warner, I don't believe we were ever 
contemplating the use of force.
    Senator Warner. Fine, thank you.
    General Paxton. That's correct, Mr. Senator. To the best of 
my knowledge, we never contemplated the use of force.
    Senator Warner. The statements that both of you made this 
morning, very good statements and pretty tough, used the 
verbiage we must support Georgia. I agree. Clearly, Russia 
overplayed its hands. It's still a question of who threw the 
first punch. But anyway, what happened happened, and it did 
alter substantially the future relationships with Russia in the 
minds of not only the United States, but I think much of 
Europe.
    We're where we are, and we're trying to, I think, learn 
from this as to how best to react should another similar 
situation take place. This morning in the New York Times, there 
was an article by Tom Shanker, who is recognized as a very 
responsible analyst in this area, and Steven Lee Myers. It's 
entitled as follows: ``The Bush administration, after 
considerable internal debate--considerable internal debate''--
has decided not to take direct punitive action against Russia 
for its conflict with Georgia, concluding it has little 
leverage if it acts unilaterally and that it would be better 
off pressing for a course of international criticism to be led 
by Europe.
    ``In recent interviews, senior administration officials 
said the White House had concluded that American punishment, 
like economic sanctions or blocking Russia from worldwide trade 
groups, would only backfire--it seems to me that is somewhat 
responsive to your question, Mr. Chairman--keep Russia's 
intransigence and allowing the Kremlin to narrow the regional 
and global implications of its invasion of Georgia to an old-
fashioned Washington-Moscow dispute.''
    ``Even as they vowed to work with allies, administration 
officials conceded that they wished the EU had been willing to 
take a firmer action than issuing tepid statements criticizing 
Russia's conduct. The officials said, the benefit of remaining 
part of a united front made it prudent for the United States to 
accept the softer approach advocated by Italy and Germany, 
among other allies.''
    Does that article comport with the testimony that you've 
given this morning? Secretary Edelman and then Secretary Fried, 
whoever wants to lead.
    Mr. Edelman. Senator Warner, to go back to one of the 
questions that the chairman posed to us about the implications 
of this set of events in August for the alliance, for Europe, 
for Europe's energy security, I think that's really the 
administration's point of departure. It seems to me that in the 
first instance, as a strategic matter, one of the things that 
Russia is attempting to do in the aftermath of the decisions 
taken at Bucharest about Georgia and Ukraine and their 
relationship to NATO is to recur to an earlier, unfortunate 
pattern that we saw in the Cold War of trying to----
    Senator Warner. Just a minute, Mr. Secretary. Just a simple 
question, does this article--I assume you haven't read it yet?
    Mr. Edelman. I haven't had a chance to read the article by 
Tom Shanker.
    Senator Warner. Well, I'm just trying to----
    Mr. Fried. It does not fully reflect administration policy.
    Senator Warner. So it's at variance with what you have 
stated this morning; is that correct?
    Mr. Fried. Yes.
    Senator Warner. That's what I wanted to know.
    Mr. Fried. Part of it is right, part of it is not right in 
my view.
    Senator Warner. What parts are not right in your judgment?
    Mr. Fried. It is not right that we consider the EU response 
tepid. It is not right that we think we have no leverage. It is 
right that we want to work with Europe and we are far better 
off working with Europe than we are working on our own.
    Mr. Edelman. Senator Warner, if I just might.
    Senator Warner. Yes.
    Mr. Edelman. What I was driving at with my answer was that 
what Russia has tried to do in the wake of Bucharest is drive 
wedges between NATO and Georgia and Ukraine. It's tried by its 
threats to Poland and some of the Baltic States to drive wedges 
between the newer and older members of the alliance. It's tried 
to drive wedges between the U.S., NATO, and the EU, and it 
seems to me that our large strategic interest is to make sure 
that that does not happen.
    Senator Warner. That's true, but what I'm trying to focus 
on is the actual use of force, and what are the circumstances 
under which we might become involved such as our forces have to 
be employed in defending Georgia or other areas. For example, 
my own study of the situation indicates that these cultural 
deep divisions, ethnic divisions, which really precipitated 
this, go back a century. Does anyone disagree with that?
    Therefore, as we proceed to try and advance the cause of 
democracy in various parts of the world, we have to be very 
conscious that a lot of these things are deep-rooted, deep-
seated, and can start a flash fire which can burst on the scene 
into a major conflict.
    That leads me to the question of the commitments, so to 
speak, to bring about admission of Georgia and the Ukraine into 
NATO. Now, everyone in the room probably knows this, but some 
may be following this hearing. Once in NATO, you have Article 
5, which says an attack on one is an attack on all. Had Georgia 
been in NATO, I assume that Article 5 would have required NATO 
to join Georgia with the actual use of force in defending its 
sovereignty. Would that be correct?
    Mr. Fried. Yes.
    Senator Warner. Now, that brings me to a situation that 
concerns me deeply, as it does other members. We're now in a 
conflict, a NATO conflict, in Afghanistan. 26 nations of NATO, 
I think almost all, are in some way, sometimes minor, but 
involved in that conflict. 15 of those nations are permitting 
the use of their forces in that operation subject to what we 
call national caveats.
    Those caveats vary, but essentially they're to protect 
their forces from being engaged in actual conflict with risk of 
life, loss of limb. The United States, Great Britain, Denmark, 
and Canada do not have those national caveats.
    What concerns me is that this action in Georgia, this 
confrontation, brings to the forefront this issue of admission 
of new nations, the potential set of conflicts that they bring 
to the table, and consequently all members of NATO must 
recognize that they could be involved in an actual shooting 
war.
    How are we going to address in the European theater, now as 
we look at the advancement of democracy, the admission of 
nations and the problems concerning these caveats? Speaking 
simply for myself, I do not want to see the American GI begin 
to take on another conflict where there are no restrictions 
whatsoever on the use of our forces, yet other nations that 
might be drawn into one of these conflicts will assert these 
caveats and not perform the risk operations.
    Secretary Edelman, how do you wish to address that issue? I 
point out the very courageous statement by the Secretary of 
Defense when he said the following: ``Moreover, NATO is already 
at risk of becoming a two-tiered alliance of those who are 
willing to fight and those who are not.'' Mr. Gates said in a 
speech at the Munich Conference on Security Policy in February 
2008: ``We must not--we cannot become a two-tiered alliance of 
those who are willing to fight and those who are not. Such a 
development, with all of its implications for collective 
security, would effectively destroy the alliance.''
    Now we see a case in point, where I think, fortunately, 
Georgia is not a member of NATO, because had it been it would 
have required the invoking Article 5 and then we're faced with 
another situation of possibly utilization of the national 
caveats.
    How do we address that in the future?
    Mr. Edelman. Well, Secretary Warner, you've raised, I 
think, two very important questions, both of which are matters 
of serious concern. The first is the question of caveats, to 
which we are opposed as a matter of principle. The caveats I 
think it's fair to say have asserted themselves in NATO 
operations outside of what had been regarded as the traditional 
theater of operations, which was the alliance per se, that is 
to say in the various stability and peacekeeping operations 
that NATO's been involved in in the Balkans and now in 
Afghanistan.
    We're opposed to caveats and I quite agree that it would be 
impossible--it would have been impossible for the alliance 
during the years of the Cold War to have operated with caveats 
and to have defended Europe. You just can't be prepared to 
defend Europe if some people are only willing to fight in some 
parts of the theater or on certain days of the week or whatever 
the caveat is.
    So I quite agree, we have made caveats a big issue. You've 
cited Secretary Gates's Verkunda speech. It was a subject of 
discussion at both Riga and at the Bucharest summits, and we 
have made some progress, but not enough, on eliminating 
caveats. For instance, I think under the new government in 
Italy a number of the caveats in Afghanistan have been lifted. 
So I think we've made some progress there.
    But it's not possible to have an Article 5 guarantee if 
there are caveats on national forces in place. I think that's 
absolutely correct. We will need, I think, now unfortunately to 
address the issue of making sure the Article 5 guarantee is 
clear and understood and credible. I believe it is a credible 
guarantee to those who are currently members of the alliance. I 
think it's arguable that had Georgia been a member of the 
alliance perhaps Russia would have acted differently in the 
light of the Article 5 guarantee. That's a hypothetical. We 
don't know.
    But I think it's absolutely crucial that all members of the 
alliance understand the responsibilities that Article 5 
imposes. We have heretofore, since NATO began to enlarge in the 
1990s, operated in an environment where the presumption was 
that NATO was a partner--Russia was a partner for NATO, not an 
adversary. Unfortunately, Russia's behavior in the last month 
has now called that into question and that's going to have to 
be reassessed. I believe that that's an issue which the defense 
ministers when they meet next week in London, and certainly 
we'll be discussing Georgia, will be addressing, as well as in 
their regular defense ministerial a month later in Budapest. I 
suspect the foreign ministers when they meet in December will 
have to address that question as well.
    So it's something that we have to now take on as an 
alliance to make sure that we have in place what we need in 
order to make Article 5 a credible guarantee.
    Chairman Levin. Secretary Fried, if you could briefly 
comment, and then we'll move to Senator Lieberman.
    Mr. Fried. In addition to my colleague's points, I'd like 
to address Senator Warner's question about NATO enlargement and 
issues of local conflicts, ethnic conflicts. NATO enlargement 
has proven to be a strikingly effective mechanism for resolving 
disputes between nations and we saw in the process of NATO's 
enlargement to Central Europe and Eastern Europe in the 1990s 
that disputes that had plagued these countries in the past 
tended to vanish or become greatly attenuated as part of the 
NATO enlargement process. So as a result of NATO enlargement, 
we saw a Europe whole, free, and at peace coming into being, 
instead of a return to national conflicts.
    That said, we have to be careful as NATO continues to look 
at enlargement eastward. NATO membership for Georgia and 
Ukraine is not on the immediate agenda. What is on the 
immediate agenda is a so-called MAP, which is not an offer of 
membership, it is not a promise of membership. Rather, it is a 
program under which countries can prepare and get themselves 
ready for membership, a process which usually takes a number of 
years.
    Senator Warner. I think we have to thank you very much.
    Chairman Levin. Thank you, Senator Warner.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks, Secretary Edelman, Secretary Fried, and Generals. 
Perhaps I should begin this way. The world changed on August 8, 
2008. That's not my statement, though I fear there may be some 
truth to it. That's a statement, roughly paraphrased, made by 
President Medvedev of Russia, and echoed in various terms by 
Prime Minister Putin. It tells us the challenge that we face 
now from a resurgent Russia based on the words of its leaders.
    Of course, this is profoundly disappointing, because I 
think it is fair to say that since the fall of the Berlin Wall 
and the collapse of the Soviet Union the policy of the United 
States and of our allies in Europe has been to engage Russia in 
a constructive partnership, even hoping for the day when it 
would be an alliance.
    I want to pick up, Secretary Fried, on what you said about 
NATO. It seems to me that NATO was created with two great 
purposes in the 1940s. One was the obvious one of uniting the 
Nations of Western Europe to be prepared militarily to resist a 
Soviet movement on the ground into Western Europe.
    But the second--and this was of course pre-EU. The second 
was to create an institutional framework in which the national 
rivalries within Europe, which had resulted in centuries of 
war, could be resolved. In fact, that has been an effect of 
NATO. I'd say without NATO there never would have been an EU, 
struggling as it may be to come into its full existence. As you 
said, Secretary Fried, that's been true with other internal 
minor ethnic conflicts, not so minor in some cases, in Central 
and Eastern Europe.
    I can remember times at the aforementioned Verkunda 
Atlantic Alliance Conference in Munich when a number of people 
said quite rationally that we might look forward to the day 
when Russia would become part of NATO if it met the 
requirements of democratic government and the rest. But the 
Russians have chosen a different course and it's a fateful 
decision, and I think it's one that we have to take as 
seriously as your statements this morning and the 
administration, NATO, and the EU have taken it.
    I appreciate the statements you've made. I think they 
reflect an administration policy that in my opinion has been 
principled, realistic, clear, direct, and appropriately 
measured, because we're trying very hard to do as much as we 
can in response multilaterally.
    It also seems to me that, though I know, as you testified, 
Secretary Fried, that we urged the Georgians not to take 
military action in either of the disputed provinces, you also--
and I appreciate it--testified this morning that the Russians 
were provoking the Georgians. Their movement into South Ossetia 
was not an unprovoked action and the Russian response, as you, 
Secretary Edelman and Secretary Fried, have said, was also 
greatly disproportionate.
    So the question is what are we going to do now in a way 
that's sensible, that's practical, that's realistic, and that 
leaves no doubt in the mind of our allies in Eastern Europe 
particularly and the Russians that we're not going to go back 
to a sphere of influence foreign policy in Europe. Our policy 
is to let every nation determine its own destiny.
    Three weeks ago today actually, Senator Lindsey Graham and 
I went to Kiev and Ukraine, then on Wednesday to Georgia, and 
then Thursday to Warsaw. I want to state that the reaction of 
the leaders of the governments of Ukraine and Poland are 
intense. They have lived under Soviet domination. They are 
fearful of what the Russian movement into Georgia portends for 
them, and have real anxiety. Of course, Poland is already a 
member of NATO, so the consequences of that are quite serious.
    I want to ask a couple of questions, if I may. The first is 
on the question of military assistance to Georgia. They're not 
asking for our troops as I hear them. They're asking primarily, 
as they told Senator Graham and me, for anti-aircraft weapons 
and anti-tank weapons. They're not in a fantasy world. They 
know if the Russian army wants to move over Georgia they're not 
going to be able to stop them. But they think if we give them 
that, or NATO helps give them that, it will, one, be a 
statement of our support, the most tangible statement of our 
support for their sovereignty; and two, that they may be able 
to at least delay or raise the costs of further Russian 
movement into Georgia.
    I take it from what's been said today that we're sending 
out an assessment team and we're prepared to consider, 
hopefully along with our NATO Allies, giving the Georgians some 
military assistance that goes beyond the counterterrorism 
assistance that we've given them so far. Which is not much help 
in a fight with Russia. Secretary Edelman?
    Mr. Edelman. Senator, first of all, thank you for your 
remarks. I agree with the tenor of everything you said and it 
seems to me that both Secretary Fried and I today have 
expressed a desire on the part of the United States that this 
not be necessarily a final statement of Russia's direction, 
that Russia still has opportunity to recalculate the value to 
its national interest of what it's done and what it might do in 
a different way.
    With regard to the question of military assistance to 
Georgia, we support Georgia's sovereignty and territorial 
integrity and one of the primary attributes of sovereignty is 
the ability to defend yourself. So there should not be any 
question about whether Georgia is entitled to military 
assistance from the United States or indeed from NATO or any of 
the NATO Allies.
    We do have an assessment team that is in place now. They're 
looking at various aspects of this, trying to assess first the 
damage to the Georgian military forces, understand what has 
been lost in terms of equipment and facilities, and get some 
sense of the scope of what it would take to just rebuild that 
capability. We have a NATO assessment team that'll be going in 
shortly as well.
    I do think we want to do this in a very measured and 
calibrated way. It requires first understanding the situation 
in terms of capability that exists, capability that might need 
to be built, and reaching some understanding with Georgia about 
what capabilities it thinks it needs and how they might be 
employed.
    Senator Lieberman. Thank you.
    Secretary Fried, let me ask you this question. When Senator 
Graham and I were in Kiev and we met with President Yushchenko, 
he quite explicitly expressed fear that the Russians were 
beginning to follow a pattern in Crimea that was quite similar 
to the pattern that had been followed in South Ossetia and 
Abkhazia, where there are Russians there who are citizens of 
the Ukraine, they're not Russian citizens, but the Russians 
according to President Yushchenko have already issued 70,000 
Russian passports to Russian Ukrainians living in Crimea. Of 
course, this is a historically strategically important section 
with access to the Black Sea.
    Are you fearful that Russia, certainly if we don't respond 
in a strong and united way to what they've done in Georgia, may 
follow a similar course in Crimea? That's certainly President 
Yushchenko's fear.
    Mr. Fried. We are indeed concerned by the implications of 
President Medvedev's assertion of a sphere of influence in 
general and in particular his assertion that Russia has the 
right or certain rights with respect to Russian citizens living 
abroad. When you combine that with the fact that Russia can 
create these citizens by the act of handing out Russian 
passports, it has of course raised concerns in our own minds as 
well as in Ukraine's.
    Ukrainian territorial integrity should not be questioned. 
Tomorrow I am going to Kiev for discussions following up on the 
Vice President's discussions there. But there is no doubt that 
Ukrainians are concerned and, unfortunately, there is some 
basis. A strong response by Europe and the United States to 
Russia's attack on Georgia is important, not just for Georgia's 
sake, but for the sake of other countries that may feel 
themselves under great pressure.
    Senator Lieberman. I thank all four of you very much for 
your strong leadership.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman.
    Good morning, gentlemen, and thank you all for your 
testimony and for your service.
    It seems to me that the consequences of Russia's actions 
are broader than even just the area of immediate influence. I 
have watched an area of the world that I closely watch, which 
is Latin America, and this morning there are news reports of 
Russia now engaging in naval exercises with Venezuela, which 
when added to the commentary of a month or so ago that they 
might be placing strategic bombers in Cuba raises questions 
about a tit-for-tat type of spheres of influence sort of 
response, along with many of the statements made by President 
Medvedev as well as Prime Minister Putin raise concerns about a 
reassertion of a Russian empire.
    So the question about whether or not Russia was provoked 
into this action or we gave mixed signals to Georgia, I resolve 
those fairly easily in my mind. When I visited Georgia and was 
in South Ossetia 2 years ago, it was very clear then that 
Russia was treating that area as part of Russian territory. 
When you drive into Tskhinvali and the first thing you see is 
an enormous billboard of Vladimir Putin, it gives you a hint of 
how they view the situation there.
    So my question then has to do with Ukraine and how we view 
a potential membership of Ukraine and Georgia into NATO.
    I know that there was a lot of discussion of this in recent 
months and it didn't occur, and perhaps not occurring, not 
having happened, was further impetus for Russia to take the 
very aggressive action that they took in Georgia and might be 
an added invitation for them to look at Ukraine.
    So what do we do to prevent a similar set of circumstances 
occurring in Ukraine to what occurred in Georgia, since the 
patterns seem terribly similar and Russia's intentions seem 
rather clear? Secretary Fried?
    Mr. Fried. We believe that the emerging democracies in all 
of Europe have a right to choose for themselves the 
institutions to which they want to belong, and that applies to 
Georgia and Ukraine. As I said earlier, an actual invitation to 
join NATO is not on the immediate agenda. But what is on the 
agenda and what was discussed prior to the Bucharest NATO 
Summit is an invitation for the so-called MAP, which is a 
program to let these countries do the hard work that they have 
to do to qualify for NATO membership.
    It is our belief that the qualifications of these countries 
to join the alliance ought to be a function of their own 
reforms, their own readiness, and the alliance's own decisions 
about whether their admission would advance European security.
    Senator Martinez. Excuse me, Mr. Secretary, but the issue 
of a few months ago, candidly, was not their readiness. We 
admitted several, did not admit these two because of Russia's 
heated objections. Frankly, I think the weakness that NATO 
showed in not admitting these two perhaps may have been a part 
of the calculations that Russia made in taking the aggressive 
action that they took.
    I understand about the process of preparing yourself for 
admission. That doesn't seem to me to be what the issue really 
is with the Ukraine and Georgia. It was more about NATO's 
willingness to have an Article 5 relationship with these two 
nations. Is that not correct?
    Mr. Fried. We strongly believe that there should be no new 
line in Europe and that Russia should not be allowed to assert 
that there is a line and that nations on the eastern side of 
this line have no right to determine their own future. We 
believe very strongly in this and so does NATO as a whole. At 
Bucharest NATO made the decision in the communique that Georgia 
and Ukraine will become members of the alliance. That was a 
signal that NATO will not recognize a Russian sphere of 
influence. This decision was important. It was not made 
casually. It was not made by lower level people stuffing 
language into a communique. This decision was made by the 
leaders themselves. That's an important decision and we need to 
stand by it, I quite agree with you.
    Senator Martinez. Two other quick things in the time I have 
remaining. One, I wanted to ask about whether membership, 
continued membership in the G-8, or other similar tangible 
steps should be taken, or is the United States urging that they 
be taken? The chairman asked about a range of options, were 
they on the table or not. Are we pushing for some tangible 
steps that will exact a price beyond this perceived isolation, 
which I frankly am not real sure that I see?
    Is there going to be a cost to Russia for their naked 
aggression, for their brutal aggression, and for their threat 
of equally brutal aggression for their neighbors? What is the 
U.S.'s response?
    Mr. Fried. Senator, I think Russia has already incurred a 
substantial cost. I think they have been isolated. I think that 
the condemnation by the EU, by NATO, by the foreign ministers 
of the G-7 countries, by individual leaders, has been strong 
and swift. Russia's isolation can be judged by the fact that so 
far only Nicaragua has recognized South Ossetia and Abkhazia.
    At the moment, our emphasis is on getting the Russian 
troops out of Georgia, working with the French and the EU to 
get Russia to honor the ceasefire that President Medvedev has 
signed. We will work carefully and systematically through the 
questions that you and the chairman raised. Those are fair 
questions and fair points. First let's get the Russian troops 
out, let's help Georgia recover, stabilize itself, and let's 
think through very carefully the consequences for our relations 
with Russia working with Europe.
    Senator Martinez. To that point, General Paxton, I would 
like to know two things, if you would, on the military end. One 
is the issue of cyber warfare. We understand that Russia 
employed some sort of cyber techniques as part of their 
invasion of Georgia. Second, the current status of Russia's 
withdrawal and where are they actually today?
    General Paxton. Thank you, Mr. Senator. If I may, sir, I'd 
like to address the second one, which is the status of the 
Russian force laydown, and then my colleague General Flynn will 
discuss the cyber side, sir.
    On the force laydown, we did monitor the existence of the 
tripartite peacekeeping force that was in South Ossetia and we 
watched the buildup of forces through the Roki Tunnel during 
the first ensuing days, particularly the first 2 or 3 days, and 
then we knew about when they peaked, and we're tracking now to 
ensure that, when you look at Sarkozy's six-point plan, we're 
trying to ensure that they get down below pre-hostility levels.
    So we do track the force levels of the Russian battalions 
and other units, not only in South Ossetia, but in Abkhazia, 
sir.
    Senator Martinez. This may be the only time in the history 
of the world the aggressor force also gets to be the 
peacekeeper. But anyway, on the cyber issue. My time has 
expired, so if you can quickly just answer on that point.
    General Flynn. Very briefly, the issue of cyber attacks--
cyber efforts. We know that there were some conducted. What is 
unclear is if they were state-sponsored, being Russian-
sponsored by the government.
    Senator Martinez. What's not clear or was clear?
    General Flynn. It remains unclear.
    Senator Martinez. It remains unclear.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Martinez.
    Just a quick comment and then I'm calling on Senator 
Nelson.
    You said, Secretary Fried, a minute ago that there's been 
no promise of NATO membership to these two countries. The 
Bucharest Summit said: ``We agreed today that these countries 
will become members of NATO.'' I'm going to leave it at that 
because I don't want to take time out of my turn. But it seems 
to me it's a direct conflict.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, gentlemen. We're assuming that Russia cares 
about the public relations. I heard Secretary Edelman talk very 
close to something about redemption. Secretary Fried said 
something close to they've already paid the costs. We're 
assuming that they care, that this is important to them as to 
how they're viewed in the rest of the world.
    Russia doesn't have to join NATO to have influence in 
Europe. They have it already. It's called energy diplomacy. 
With the reliance of Western Europe in Russia's natural gas, 
Russia already can do whatever it chooses to do as long as it 
has those strings that it can pull. There are constant reports 
about their willingness or their ability to do that. It's been 
suggested that they've already engaged in some energy diplomacy 
with the Ukraine. If you control 40 percent or more of the 
natural gas in Western Europe, NATO becomes somewhat 
irrelevant, particularly if it's in danger of becoming a two-
tier system. Why would you want to belong to that organization 
when you already have the influence you have and a growing 
influence?
    I visited the offices of Gazprom. I've seen their pipeline 
charts and their projected pipeline charts. As I recall, I saw 
a projected pipeline into North America.
    Let me ask this. Would you think that it's quite possible 
that the situation has been altered, as the chairman suggested, 
and that, I think as Senator Lieberman suggested as well, that 
they have now charted a different course? Is that a 
possibility, that we're trying to use a paradigm that may not 
apply to the way they're thinking? If that's the case, we're 
going to only frustrate ourselves and not be successful in 
achieving any kind of diplomacy with the rest of Europe.
    Either way.
    Mr. Edelman. Senator Nelson, I guess I would say that we 
don't definitively know the answer, dispositively know the 
answer yet.
    Senator Ben Nelson. Well, but is that a possibility, that 
this is where it's heading?
    Mr. Edelman. Yes, it is a possibility, and I think I 
alluded to that in my opening statement, that this may very 
well be the direction that they are headed in. We hope not and 
we want to make it clear that it doesn't have to be this way, 
that the choice is up to Russia how it wants to conduct itself 
with regard not only to the NATO Allies, but its neighbors, and 
whether it wants to abide by the norms and the values of the 
institutions that it has said over the last 15, 16 years that 
it aspires to join.
    That's been the basis for the policy of three American 
administrations, that we ought to take them at their word, try 
to integrate them into these institutions.
    Senator Ben Nelson. Excuse me, but you know the former 
republics don't take them at their word. I'm not sure I 
understand why we're anxious to do that.
    Mr. Edelman. I think it's not a question of anxious. I 
think it's the policy that has been, as I said, undergirding 
three different presidential administrations. I think before we 
discard it we need to test the proposition and find out what 
direction Russia is really going in.
    I very much agree with your comments about the importance 
of energy and energy security. This is an issue that has 
precipitated discussion among the defense ministers of NATO 
back in the time when the gas cutoff to Ukraine took place. I 
think the attacks in Georgia this month highlight the 
importance of Georgia as an energy transit country so that we 
can maintain diversity of supply for both gas and oil, in 
addition to the Baku-Tbilisi-Ceyhan pipeline.
    The issue of Europe's energy dependence on Russia 
unfortunately is an old one. It goes back more than 20 years. 
The United States I think under administrations----
    Senator Ben Nelson. It's even more significant today than 
it was then.
    Mr. Edelman. It's more significant than it was then, but 
the point I was trying to make is that we've had a number of 
presidential administrations of both parties that have had the 
same view, I think, which is that Europe must have diversity of 
energy alternatives in terms of sources and transport.
    Senator Ben Nelson. Certainly the Ukraine is. They came and 
talked to me about ethanol.
    In trying to understand what's going on and project for the 
future, I think it becomes very important, as you're 
indicating, that we look at their actions as well as their 
words and try to understand what's going on and not take them 
simply at their word.
    Secretary Fried, you said that Poland seemed to be 
motivated to move more quickly on the missile defense agreement 
as a result of the action in Georgia by Russia. Do you have any 
thoughts about what Russia's motives may have been and whether 
they had assumed that Poland would back off or that the Czech 
Republic would back off or Azerbaijan would be less friendly 
toward the United States? Do we have any thoughts about that?
    Mr. Fried. I can't speak definitively to Russian motives or 
Russian thinking. But if that is what they thought, then they 
were badly mistaken. Countries such as Ukraine and Azerbaijan 
and NATO Allies such as Poland and the Baltic States have 
reacted vigorously against Russia's attack on Georgia. They 
have led in Europe for a strong European response.
    The Vice President's trip to Azerbaijan and Ukraine shows 
that these countries are looking to the United States for 
leadership. They welcome our support. Far from being 
intimidated by the Russians, they are determined, it seems, to 
safeguard their own sovereignty, which has been so hard to 
regain.
    By the way, I also, sir, agree with your point about 
energy. It has been the policy of this administration and the 
previous one to support efforts to diversify sources and routes 
for energy to avoid Russian monopolies.
    Senator Ben Nelson. One final question. You mentioned that 
you're coming forward with a proposal for about a half a 
billion for economic recovery efforts in Georgia. Have any of 
the other aligned countries, whether NATO or the EU, have they 
stepped forward? I know President Sarkozy has shown an interest 
and talked directly to the Russian officials. Have they put up 
or offered to put up any money as well?
    Mr. Fried. Not to the extent we have.
    Senator Ben Nelson. To what extent, then?
    Mr. Fried. Smaller amounts of assistance, mainly 
humanitarian.
    Senator Ben Nelson. How small?
    Mr. Fried. Tens of millions of dollars from various 
countries. I can provide this in detail.
    Senator Ben Nelson. I would like to see it.
    [The information referred to follows:]

    Not yet to the extent we have, but our pledge of $1 billion has 
stimulated the European Commission to start developing a large package 
of assistance. So far, after the United States, the three biggest 
contributors to support for Georgia are members of the European Union 
(EU) or North Atlantic Treaty Organization (NATO): Norway has pledged 
$36 million; Sweden $20 million; and Germany $15 million. Each country 
is contributing in different ways, but in total, EU and NATO countries 
have provided or pledged more than $109 million in bilateral 
assistance; $14.1 million through U.N. programs and $95 million in 
material (blankets, tents, food, medical equipment, and other 
necessities) or other forms of direct cash assistance (through 
nongovernmental organizations and international organizations). Again, 
we expect that assistance from the EU will be much larger than the sums 
so far pledged.

    Mr. Fried. Mainly humanitarian. The EU is preparing to do 
more and they're talking about an international conference to 
support Georgia. We've made the decision to move out first, 
early, set a standard, but also help the Georgian economy 
stabilize itself. So we moved out promptly and we hope that 
Europe follows quickly.
    Senator Ben Nelson. We hope that they follow with their 
coins as well as their words, because that's going to really 
dictate what this future looks like for Georgia and for the 
Caucasus.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Thune is next, to be followed by Senator Webb. 
Senator Webb is able to stay on beyond his own time. Thank you 
for being able to do that because I'll be necessarily absent 
for about half an hour. Then he can call on Senators after he's 
done himself.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    I want to thank Secretaries Edelman and Fried and also 
General Paxton and General Flynn for being with us today and 
for your service to our country.
    Secretary Edelman, I understand that with Russia's 
recognition of Abkhazia and South Ossetia as independent states 
2 weeks ago there were very few, if any, other countries that 
have followed suit and officially recognized the independence 
of these two states. In fact, my understanding is aside from 
Nicaragua there isn't any other country that's officially 
recognized the independence of those two countries.
    By way of comparison, Kosovo's independence last February 
was recognized by 46 countries, with 17 countries recognizing 
their independence within the first week after Kosovo declared 
it. All of the G-7 nations have recognized Kosovo's 
independence.
    In your estimation--and I pose this to both Secretary 
Edelman and Secretary Fried. In your estimation, what does that 
comparison say about the notion that Russia's invasion of 
Georgia marked an end to the post-Cold War world or that a 
major shift in the distribution of power has occurred?
    Mr. Edelman. Senator Thune, I think what it speaks to most 
is the weakness of the Russian argument that its actions in 
Georgia and its recognition of Abkhazia and South Ossetia as 
independent states are somehow following on the Kosovo 
precedent. Kosovo was in some sense sui generis because it was 
an action that came at the tail end of a decade of upheaval 
that led to 250,000 deaths and millions of people being 
displaced, a number of U.N. Security Council resolutions, and 
Kosovo's status was regulated under Security Council Resolution 
1244.
    None of those circumstances, obviously, apply in this 
instance. So I think, notwithstanding the hyperbolic and 
inflated rhetoric that has emanated from some in Russia about 
their actions being in response to ``genocide,'' I think in the 
international community as a whole there is recognition that 
there is really no substance to that comparison. I think the 
factors or the facts that you've quoted about who recognized 
what I think speak to that.
    Not only has Nicaragua been the only country I'm aware of 
that has recognized this, but, as my colleague testified, the 
SCO refused to endorse it. The Collective Security Treaty 
Organization, which is made up of the states of the former 
Soviet Union, did not endorse it. So I think, that to me speaks 
volumes about the weakness of this so-called precedent.
    Senator Thune. Do you have anything to add?
    Mr. Fried. I agree with my colleague's point. I would 
simply add that it also speaks to Russia's diplomatic isolation 
on this question.
    Senator Thune. The other question I had for either or both 
of you has to do with Russian military and diplomatic officials 
making some very serious threats against our NATO Allies Poland 
and the Czech Republic regarding the missile defense sites that 
we have reached agreement to build in these countries. Last 
month, after Poland agreed to host 10 missile interceptors to 
defend against a potential strike by Iran, the Russian deputy 
chief of staff said that Poland would be open to a military 
strike and possibly even a nuclear strike.
    Earlier this year when we reached agreement with the Czech 
Republic to house a missile defense radar there, the Russian 
foreign minister published a written statement that said: ``If 
the real deployment of a U.S. strategic missile defense system 
begins near our borders, then we will have to respond using not 
diplomatic but military technological methods.''
    Given this pattern of reckless behavior on the part of 
Russia, do you view these statements as simply rhetoric, more 
hyperbolic rhetoric, or something that we should be taking at 
face value? In other words, the question I would have is how 
seriously should we be taking these threats?
    Mr. Edelman. Well, I think both are true. I think the 
rhetoric is pretty hyperbolic, but I think we have to take the 
threats with the gravest seriousness. These threats I think are 
baseless and they come in the face of a very concerted effort 
that both Secretary Fried and I have been involved in to 
assuage Russian concerns about the interceptor sites. Russia 
failed to mention in most of these discussions that they 
themselves already have nuclear-tipped missile defense 
interceptors arrayed around Moscow. Our interceptors not only 
are not nuclear-tipped, they have no explosive warhead. They 
are purely kinetic kill vehicles. The notion that 10 of them in 
Poland, clearly aimed at deterring an Iranian missile threat 
that is developing, and in order to protect our Allies, just as 
the missile defense system that we are deploying at Fort 
Greeley and Vandenberg Air Force Base will ultimately defend 
the United States against those threats, seems to me to be 
consistent with what the United States has practiced throughout 
the postwar, post-World War II period--making sure that the 
defense of Europe and the United States is coupled.
    The idea that these are a threat to Russia and that they 
should call for threats of retaliation, much less nuclear 
retaliation, on the countries hosting them seems to me to be 
totally out of keeping with the precepts that we have been 
operating on with Russia since the end of the Cold War.
    Senator Thune. Secretary Fried, there are recent press 
reports that indicate Russia is planning to use its position in 
negotiations with Iran as a bargaining chip against the United 
States. How would you assess Russia's cooperation on the 
subject of Iran in the past and have they been much of a help? 
Doesn't a nuclear-armed Iran pose a threat to Russia as well? 
Just comment generally, if you would, on some of those 
questions.
    Mr. Fried. Russia has been a constructive partner in the P5 
plus 1 process with respect to Iran's nuclear program. We have 
worked closely with Russia. The so-called incentives offer that 
we made, that the P5 plus 1 has made to Iran, came about 
through, among other things, work with the Russians.
    It certainly seems to be in Russia's interest to work with 
us because a nuclear-armed Iran would be a threat to them. I 
have also heard what you have, sir, that the Russians intend 
somehow, or have talked loosely about trying to use their 
cooperation on Iran as leverage. I don't see how they would, 
and in any event we are going to try to work with the Russians 
in areas where we have common interests, but I cannot imagine 
circumstances in which we would bargain away the rights of 
sovereign countries for the privilege of working with the 
Russians in areas of common interest.
    Senator Thune. There's a report that Russia's going to soon 
deliver or may have begun delivering new, much more 
sophisticated anti-aircraft systems to Iran. In fact, there was 
an ABC News report on July 9 stating that Iran is expected to 
take delivery of the SA-20 missile shield system from Russia by 
the end of the year, which I think is contrary to remarks made 
today by Secretary of Defense Robert Gates. That's actually a 
quote from July 9.
    I guess--and maybe this is a question for our military 
members of the panel, for General Flynn today, too. But is the 
assessment of Russia's delivery of these systems to Iran 
something that we ought to be concerned about? How long will it 
be until these systems are up and running? If delivered, what 
does the capability of the systems mean to the military balance 
of power in the region?
    General Paxton. Senator Thune, with your permission let me 
just give a preliminary answer and then I think General Flynn 
will be happy to talk about some of the details.
    Unfortunately, Russia has provided a lot of conventional 
military support to Iran. In general, I don't think that has 
been as helpful as some of their diplomatic efforts have been. 
The missiles you point to and the reports you point to in 
particular are something we watch very carefully because it is 
a very serious capability that would be a concern to us, as 
well as others in the region, and we do watch it very closely.
    To the best of my knowledge, I don't believe that the 
missiles that were referred to in the ABC report are in fact 
slated for delivery by the end of this year. But it is 
something that we are watching very closely.
    Senator Thune. General?
    General Flynn. I would just add that I would agree with the 
time line. We don't see it by the end of this year. The 
significance of that type of weapons system put into Iran would 
certainly change some of their capabilities and it's something 
that we would be clearly concerned about.
    I would just add that in order for Iran to acquire that 
kind of a weapons system they have to go through a whole series 
of training and understanding how to apply it, et cetera. So 
there's a number of issues that we would be monitoring and 
working very closely with our Allies to ensure that we 
understand the time line if in fact they decide to deliver that 
weapons system into Iran.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    Senator Webb [presiding]. Thank you, Senator Thune.
    As it turns out, I am next. I would like to begin, as is so 
often the case, by stating that I'm in strong agreement with 
the senior Senator from Virginia in the approach that he took 
to his questioning and the concerns that he raised. The 
question from I think both of our perspectives is not so much 
philosophical alignment or diplomatic agreement. It is the 
circumstances under which the United States must feel compelled 
to respond militarily in these sorts of situations.
    This is a region, as you all know, whose history is scarred 
by these sorts of entanglements. If you go back to World War I, 
World War I started because Austria gave an ultimatum to 
Serbia, and because Austria was involved Germany got involved, 
because Serbia was involved Russia got involved, and because 
Russia got involved France got involved, and because France got 
involved England got involved.
    We need to be very careful in sorting out what is an 
alliance and what is not. If you look at the movement in NATO, 
the new movement in NATO, I think if we were to apply 
historical terms we have been bringing in a series of 
protectorates in traditional terms rather than allies. You 
would define an ally as a nation that actually bolsters your 
security or your collective security by joining. A lot of these 
countries, it's hard to imagine their meeting that standard.
    As Senator Warner said, if Georgia had been a NATO member 
when this incident occurred, despite the tempestuous nature of 
the leadership in Georgia that was something of lighting a fuse 
on it, we would have had a different set of responsibilities to 
be looking at as a country.
    Secretary Edelman, you were I think very careful in your 
comments to use the word ``disproportionate response'' when you 
talk about the Russian actions. Would you say that there was a 
response that would have been appropriate? What would have been 
Russia's limits of disproportionality on Russia's response?
    Mr. Edelman. Senator Webb, as Senator Lieberman pointed out 
in his questioning, there's no question that Russia has been 
provoking Georgia for some time. Because there was some 
uncertainty, as there always is when you have these kinds of 
periods of tension and conflict in a place as remote as the 
Caucasus, I think we've used the word ``disproportionate'' 
because if you accept it, the premise that Russia had, which is 
that it was protecting its 500 peacekeepers in South Ossetia 
and that it was trying to stop the attacks, the artillery 
strikes on Tskhinvali, there would have been no need to go 
beyond the administrative borders of South Ossetia, to take up 
positions along the M1-M27 highway, which is the east-west 
lifeline of Georgia, to take military actions that might at 
least arguably suggest an attack on the Baku-Tbilisi-Ceyhan 
pipeline, and to systematically go after every element of 
Georgian military----
    Senator Webb. So basically you're talking about the 
proportionate nature of the response when you go into that 
detail?
    Mr. Edelman. Correct.
    Senator Webb. I haven't had access to classified material, 
but I have read that 10 Russian soldiers were killed in the 
initial action by Georgia. Is that correct?
    Mr. Edelman. I'd have to defer to General Flynn for the 
actual casualty numbers. I'm not sure we actually know the 
numbers yet because there's still some confusion.
    General Flynn. The initial contact, which we believe was 
between some police elements in South Ossetia and some Georgian 
military forces, the outcome of that is still to be assessed. 
The numbers range from a small number such as 10, and I've seen 
reports upwards as high as 200 in the initial couple of hours 
of contact.
    Senator Webb. Well, these are the kind of situations I 
think that give a lot of people pause when we talk about 
expanding NATO in the way that we've been expanding it.;
    General Paxton, we received a reprogramming request 
yesterday from DOD on the Armed Services Committee here to 
transfer $30 million from the 2008 operation and maintenance 
(O&M) funds account to the overseas humanitarian disaster and 
civic aid account in order to provide humanitarian relief to 
Georgia. Are you aware of that?
    General Paxton. Only in the general terms, Mr. Senator, 
that we are considering that. I'm not sure what that is 
specifically tied to, though, no, sir.
    Senator Webb. So you're not aware of the $30 million 
transfer that's being proposed?
    General Paxton. Well, I defer to----
    Senator Webb. Are any of you gentlemen aware of it?
    Mr. Edelman. I'm aware of it, Senator Webb. I think it's 
because the Overseas Humanitarian Disaster and Civic Aid 
account had been run down by a variety of other humanitarian 
contingencies and we wanted to make sure we had sufficient 
funding to continue the humanitarian efforts.
    Senator Webb. Do you know where that would be coming out of 
in terms of the O&M accounts?
    Mr. Edelman. Specifically where the comptroller would be 
reprogramming money from, I'm not aware of that, Senator. But 
we can get you an answer for the record.
    [The information referred to follows:]

    The $30 million being reprogrammed from operation and maintenance 
to the Overseas Humanitarian Disaster and Civic Aid (OHDACA) account 
was taken from global train and equip funds. Congressional actions in 
the fiscal year 2008 supplemental resulted in an additional $150 
million being added to the $300 million global train and equip account. 
The Department of Defense has no plans to execute global train and 
equip projects beyond the $300 million already authorized in the 
National Defense Authorization Act for Fiscal Year 2008.
    The reprogramming effort was required because DOD responses to 10 
disasters, including the Georgia response, depleted the $40 million 
OHDACA account. The reprogramming action replenishes the OHDACA account 
for fiscal years 2008-2010 disaster requirements.

    Senator Webb. All right, I'd appreciate that.
    Senator Bayh. Thank you.
    Gentlemen, thank you for your service.
    I'm reminded of a couple of things here this morning, one 
in the distant past. I think there's a passage from the History 
of the Peloponnesian War, which I was required to read as a 
young man, and I think it's called ``The Melian Dialogue,'' in 
which the Athenian general announces to the citizens of the 
island of Melos, who were interested in negotiating with him, 
that in his point of view ``The strong do as they will; the 
weak suffer what they must.''
    Here we are this morning. I update that to a conference in 
Prague a few years ago I was privileged to attend on the 
subject of U.S.-Russian relations. A prominent figure in the 
Russian government gave us a presentation and, frankly, I found 
it to be rather breathtaking. He basically said: We've 
concluded we don't need you. Where we have interests in common, 
as both of our secretaries this morning have outlined, we'll 
work together with you, and he mentioned preventing the spread 
of nuclear weapons. I don't think he mentioned Iran, but I 
think that's on the list. There may be a couple of others.
    But he said: Other than that, we just don't--we have other 
interests, you're not that relevant to us, and we're going to 
go on our way. Here we have it again this morning.
    So I would like to follow up, Secretary Fried, on something 
I think you mentioned. It seems to me that these individuals 
leading Russia right now, they care about power, they care 
about wealth, they care about military capability, they care 
about territory, the acquisition and the occupation thereof. I 
mean, these are hard-nosed, bottom line kind of individuals.
    When we say that they have ``paid a substantial cost,'' I 
really wonder if they look at it that way. Perhaps in 
diplomatic circles people may look at it that way. They've been 
condemned. They've been diplomatically isolated. Do they really 
care about that kind of thing? They don't strike me as 
individuals who care that deeply about that kind of thing?
    There are reports now floating out there that they may be 
sending nuclear experts to Iran or they may be welcoming 
Iranian nuclear scientists to Moscow. I assume that's just sort 
of to tweak our nose a little bit. But in any event, these are 
the kind of individuals that we're dealing with.
    So when we have interests in common, we will work with 
them. When our interests diverge, we need allies and we need 
leverage. Our allies are somewhat weakened because of their 
dependency on Russian oil and gas. We need to focus on reducing 
that. We need to reduce our own dependency on imports of 
energy.
    But my question simply to the two secretaries is this: 
Where is our leverage? What kind of leverage do we have that 
they care about? It strikes me that simply verbal condemnation 
and diplomatic isolation may not be enough to get the job done. 
So what is our leverage, and if we don't have enough how do we 
get some?
    Mr. Fried. Senator, what you heard in the conference in 
Prague is typical of a certain strain of Russian official 
thinking. I've heard it, too. You gave a quite accurate 
account.
    I don't think Russia is 10 feet tall and, although their 
bank accounts are full of money earned by exporting oil and 
natural gas, Russia has substantial weaknesses. I think they're 
mistaken, the Russian leaders are mistaken, if they think they 
can, like the Soviet Union, live and prosper in their own world 
apart from the west. Their demographic situation is terrible 
and not going to improve soon, demographics being a very 
unforgiving science. Their economy is unbalanced, with their 
exports highly dependent on natural resources. That is, it is a 
value extracted more than a value added economy, in contrast 
to, say, China.
    Russia will require capital investment and a sustained 
period of cooperation with the world for its economy to grow 
for some time to come.
    Senator Bayh. Now you're on to something here. Are you 
suggesting that the recent adverse reaction in the markets and 
possibly adverse impacts on future investment in Russia will 
have a restraining effect on them? Where is the leverage, Mr. 
Secretary?
    Mr. Fried. Businesses have always been concerned about 
problems of the rule of law in Russia. The events in Georgia 
may tend to underscore these concerns. You're quite right that 
a couple of communiques that use the word ``condemn'' by 
themselves, if this is all there is, does not constitute a 
lasting lesson.
    But it is a pretty good beginning, and Russia is not as 
well placed to prosper in isolation than was the Soviet Union. 
The population is half the size, they don't have a bloc of 
countries, of European countries, as enforced allies. Russia is 
ill placed to have a hostile relationship with the world.
    It is true that there is a lot of triumphalism in the 
official Russian media. But over time I think cooler heads may 
prevail.
    Those are good questions, Senator, and we are going to have 
to look at this in a systematic and thoughtful way in the 
months ahead. Our priorities now are to help Georgia, work with 
Russia's neighbors. But the questions you raise and that others 
have raised are good ones and these are the ones we're working 
with. I'm just trying to outline some of the parameters in our 
underlying thinking.
    Senator Bayh. Secretary Edelman, I'm interested in your 
thoughts as well.
    Secretary Fried, I would just comment or ask, and perhaps 
one of the two of you can follow up. The reaction of the 
markets was good. I've seen what's happened with the Russian 
stock market and the reduction in commodities prices which has 
taken place for other reasons may face them with some difficult 
financial decisions, reminding them that they don't, even with 
the wealth they have, they don't live in isolation.
    But is there anything that we as a government can do to 
follow up on the action of the marketplace to sort of drive 
that home, to give us some more leverage? That's just a 
question I would have. Secretary Edelman, do you have any----
    Mr. Edelman. I was just going to say I agree----
    Senator Bayh. It sounds as if you read the Melian Dialogue 
at some point, too. You were nodding your head.
    Mr. Edelman. I had a misspent youth as a history graduate 
student, Senator Bayh, and one of my teachers was Donald Kagan 
at Yale University. So I spent a lot of time reading the Melian 
Dialogue with Professor Kagan.
    I think I was actually going to pick up on your very good 
point about the Melian Dialogue. I think it's been the hope of 
successive American administrations since the collapse of the 
Soviet Union that we were moving into a world where the rules 
and the norms by which civilized nations would conduct 
themselves would not be the rules of the Melian Dialogue, where 
people would not judge the greatness of the country by its 
ability to inflict a lot of pain on its smaller and weaker 
neighbors or intimidate them into bending to its will.
    The difference I think between earlier periods where people 
had to deal with the Soviet Union and the era we are in now, 
where we deal with Russia, is precisely those factors of the 
globalization of the international economy that my colleague 
adverted to in his answer. Those are stringencies that don't 
require the U.S. Government necessarily to do anything. Those 
are things that are just the inevitable workings of the 
international economic order.
    I think it is our hope, I think, that on sober reflection, 
as I said in my statement, members of the Russian elite will 
think twice about this, precisely because this is not just 
about the sort of regard in which they're held in the western 
world. It is about things that are closer to their bottom line.
    But I would not dismiss totally, as someone who spent 
several years serving in what was then the Soviet Union and who 
learned the language and has spent many visits back there, I 
would not underestimate the degree to which their own self-
regard is to some degree tied to the regard in which they're 
held by the rest of the world. It's not an inconsiderable 
factor for them, and it's one I think that we have to----
    Senator Bayh. They're not indifferent to reputational 
concerns.
    Mr. Edelman. I think you may hear a lot of rhetoric right 
now, as you have heard and as I have heard and as Secretary 
Fried has heard, that they're back, that their coffers are full 
of energy money and they don't have to pay attention to any of 
this. I think over time they may have reason to have second 
thoughts about that.
    Senator Bayh. It seems like a rather slender reed, but 
let's hope. So the bottom line, what I hear you saying is, 
while the demographics, those sorts of things, are working 
against them, that's something we don't have much impact over. 
While our leverage may not be great, we're really relying upon 
their appraisal of their own self-interest, which we believe 
they have misapprehended. Is that the bottom line there?
    Mr. Fried. We tend to think of our response on three 
levels. The first is to defend Georgia so that its sovereignty 
is not crushed, in which case Russia will have succeeded in 
grabbing two small provinces and nothing more.
    Second, as Senator Martinez pointed out, we need to help 
the other countries in the region--as you pointed out, sir--the 
other countries in the region that feel themselves at risk.
    If we succeed in those first two, then the third level, 
which is the long-term implications for Russia, has more 
weight, we have more time. Administrations love to think in 
terms of short time lines. That's what we have, the news cycle, 
the calendar to the next election. But historic shifts and 
strategic movement takes place in its own time. The forces of 
the market, the forces of international isolation, are 
extraordinarily powerful, but they don't happen by themselves. 
This isn't an invisible hand argument. This is an argument for 
making it clear that Russia's costs will mount over time. Some 
Russians, even today, are beginning to make that point 
cautiously, because it isn't actually a free press over there.
    Senator Bayh. Thank you very much, gentlemen.
    Senator Webb. Thank you, Senator Bayh.
    Senator Clinton.
    Senator Clinton. Thank you very much.
    This is a tremendous opportunity for us. The questions that 
have been raised about our relationship with Russia going 
forward deserve the closest of attention and certainly an 
attempt to forge a bipartisan consensus similar to what we 
forged during the Cold War. I think that whatever allusions 
might have existed with the fall of the wall in Berlin have 
certainly been tarnished, if not eliminated, but there doesn't 
seem to be much that has taken their place.
    I would urge that we take this opportunity, especially 
because we are moving to a new administration, to create a 
commission here in our own country--I know that President 
Saakashvili has called for an international commission, which I 
hope will be established, and I hope the United States and our 
NATO Allies will promote that vigorously--to create such a 
commission to determine the actual facts, because there is a 
dispute about the facts which may or may not be real, but has 
certainly infected the dialogue and will therefore impact 
whatever thinking we have going forward.
    I believe that the administration would be well-served to 
create this U.S. commission, which then could cooperate with 
the international commission. In the absence of the 
administration moving on this, I will be introducing 
legislation to establish such a commission. Obviously I hope 
the administration does it without legislation, although I 
think there are members of Congress who would be worthy members 
of such a commission were it to be established.
    I also think that as we promote the idea of the 
international commission it would be important to keep up a 
dialogue with Russia. To that end, I am somewhat troubled by 
the withdrawal from the nonproliferation efforts that we were 
engaged in. I think we ought to be able to hold competing 
thoughts in our mind at the same time. Is Russia more 
aggressive? Are they more intent upon pursuing their own 
interests as they define them territorially, economically, 
politically? Of course they are. I don't know why anybody's 
surprised about that. But therefore, rather than seeking to 
isolate them, which I think is not a smart proposal, we need to 
be much more strategic. I don't know that it's in our interests 
for the administration to withdraw the nonproliferation 
agreement that you had negotiated.
    So I hope that we can take this opportunity to really think 
deeply about what deterrence in the 21st century means and what 
our geopolitical interests are. Senator Webb and Senator Warner 
raised the questions about NATO. I probably disagree with where 
their questions are leading, but I think it's fair game for us 
to debate and discuss that.
    I want to turn to General Paxton and General Flynn and ask 
either or both of you, were you surprised by the outbreak of 
these hostilities in Georgia? General Paxton, General Flynn?
    General Flynn. Senator Clinton, as we said earlier, we 
tracked the, if you will, ``peacekeeping'' force that was there 
and the buildup of forces. You can always, I guess, reasonably 
expect something could happen, but in terms of the speed with 
which it happened and the extent that it came, as Ambassador 
Edelman said, it was disproportionate to us. We knew that there 
was available forces north of the Roki Tunnel in Russia. We 
knew that there had been some summer exercises, which is not 
out of the norm. We knew that they have the potential to do 
things. But we had neither the expectation that it was going to 
happen to that degree and certainly to that size and speed.
    Senator Clinton. Did you also track the railroad 
construction and the reinforcement of infrastructure, like the 
depots, to facilitate the movement of heavy equipment?
    General Paxton. Yes, ma'am. To answer your first question, 
I, personally yes, was surprised at the disproportionality, the 
duration, and what I would say is sort of their tactical 
commitment to what they eventually achieved.
    The hindsight from my perspective, because just coming into 
this, when we look at what preparations and the exercise that 
was conducted, that started on about July 15 and didn't end 
until about August 3, and some of the military and preparation, 
tactical preparation kinds of things that they did, I think 
when we look at it and we reexamine sort of what did we know, 
when did we know it, there's probably a lot more to the element 
of tactical surprise that we should probably be taking some 
lesson from.
    Senator Clinton. I appreciate your saying that General, 
because obviously that's within the bailiwick of this committee 
and I think that it would be worth some time to look at lessons 
learned from this.
    I want to submit for the record an article that appeared in 
the Washington Post on July 15 by Ronald Asmus, who is with the 
German Marshall Fund, and it's called ``A War the West Must 
Stop.'' Just the first sentence says: ``There is war on the air 
between Georgia and Russia. Such a war could destabilize a 
region critical for western energy supplies and ruin relations 
between Russia and the west.''
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Clinton. So clearly there were observers, experts, 
there were people who follow this area and what's happening 
inside Russia and on Russia's borders who were prescient, who 
basically said this is a war we must stop. One of the purposes 
of this commission that I am advocating for our own country is, 
we have to answer for ourselves, did we embolden the Georgians 
in any way? Did we send mixed signals to the Russians? I think 
it's important that we understand that there is a lot of debate 
and ferment around what the United States Government really did 
say, how clear we were with Moscow, how clear we were with 
Georgia.
    We need to sort all that out, and the military aspect of 
this with respect to the signals, the intelligence, the 
information, how it was assessed, I think is an important part 
of it. So clearly that should be, in my view, part of what this 
commission looks at.
    I thank the witnesses.
    Senator Webb. Senator Nelson?
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Since the 1990s, Georgia tried to abolish the South 
Ossetian autonomous region and they were trying to forcefully 
integrate South Ossetia into Georgia, what do the South 
Ossetians think? Do they think of Russia as a protector or an 
invader?
    Mr. Fried. It depends. The short and honest answer to that 
question, Senator, is it depends on which South Ossetians you 
talk to. Over the last couple of years the Georgians offered 
increasingly generous peace plans to the South Ossetians and 
the Abkhaz, seeking to settle this conflict diplomatically. The 
Georgians had offered extensive autonomy to the Abkhaz. They 
had reached out to the South Ossetians as well.
    There was in South Ossetia before the conflict two 
competing leaderships in South Ossetia. One was more for 
integration with Georgia with autonomy and the other was more 
pro-Russian.
    That said, the roots of the South Ossetian-Georgian dispute 
do go back to the wars of the early 1990s. Plenty of mistakes, 
plenty of ugly things happened all around. Our effort, sir, was 
to promote a peaceful and diplomatic solution. As my military 
colleague says, as the warnings grew louder, as the tension 
mounted, we increased our diplomatic efforts, working with the 
Europeans, Germans in particular. To no avail as it turns out, 
we were trying to work hard to avoid this problem.
    By the way, in answer to Senator Clinton's remark, Ron 
Asmus and I did indeed warn President Saakashvili. That was one 
of our warnings over the summer, that there was a moment of 
danger this summer. We did this in July in Dubrovnik. It was 
part of the record of consistent messages that we sent to the 
Georgians.
    Senator Bill Nelson. Well, what's in the future? Is it 
independence? Is it Russia or is it Georgia?
    Mr. Fried. We believe in and support Georgia's territorial 
integrity. So do our European partners. So do all other 
countries in the world, with the so far exception of Nicaragua. 
So we support a long-term effort to reintegrate these 
territories into Georgia. We do not support independence. We do 
not support annexation by Russia.
    Senator Bill Nelson. But you say that depends on who you 
ask then.
    Mr. Fried. In South Ossetia.
    Senator Bill Nelson. Yes.
    Mr. Fried. Yes, it does.
    Senator Bill Nelson. I would assume that they would have 
something to say about it. So that's my question: are a 
majority of them wanting to be in Russia, Georgia, or 
independent?
    Mr. Fried. I don't know of any reliable polls, but in our 
view Georgia's territorial integrity should not be held subject 
to a poll in South Ossetia under these circumstances. We have 
maintained support for the territorial integrity of countries 
as a rule and we don't believe in separatism as a rule. We need 
to stabilize the situation in Georgia, and what seems 
impossible now may not seem impossible in a long time to come.
    I hope it doesn't take decades. I notice that in Cyprus, 
after all the bloodshed, the tension, the division of the 
island, there are leaders on both sides of the island who 
support reunification. Now they're engaged in serious talks on 
reunification. After 1974, for many years this would have 
seemed impossible, unthinkable, but there you are.
    So we shouldn't dismiss what seems impossible, what seems 
impossible now, and we shouldn't harden that into a rule 
forever.
    Senator Bill Nelson. I'm just trying to get the practical 
lay of the land, not what we want. I agree with you, that's 
what we want.
    I first went to Cyprus and saw that division in the early 
1980s and I thought it was going to be very difficult--and it 
seemed so silly, the way they had drawn the lines and people 
came and went and so forth. It only took 30, 35 years, but it's 
happened.
    Let me ask you this. The Russians took very great umbrage 
at the way we supported the independence of Kosovo. Was that a 
contributing factor to them going into Georgia?
    Mr. Fried. Oh, I think it was more in the nature of an 
excuse, and not one that stands up to any serious scrutiny. The 
independence of Kosovo followed nearly 10 years of U.N. 
administration, followed by a Security Council resolution that 
envisioned a final status process. It followed years of 
negotiations trying to come to a compromise. It was a unique 
situation, not at all applicable to South Ossetia and Abkhazia, 
and indeed you can see that by the way the Europeans have 
reacted. No European country has recognized South Ossetia or 
Abkhazia. Two-thirds of the EU, more than two-thirds now, has 
recognized Kosovo, as well as all the G-7 countries.
    Mr. Edelman. Senator Nelson, if I just might add to my 
colleague's answer. One reason why I hope that there will be 
sober second thought and reflection in Russia about the 
direction they've gone in is that, although I don't think 
Kosovo is a precedent for what they've done, what they've done 
starts to raise questions and precedents inside Russia itself 
about Chechnya, about Ingushetia, about Tatarstan, Dagestan. 
What they have done potentially is very, very dangerous for 
their own self-interest again and I hope that they will 
reconsider it.
    Senator Bill Nelson. That's a good point, particularly with 
regard to Chechnya.
    Tell me, is the oil flowing, the gas flowing in the 
pipelines right now?
    Mr. Fried. I believe the Baku-Ceyhan oil pipeline gas is 
flowing, and that pipeline is south of the conflict zone. I'm 
not sure whether the oil is flowing in the Supsa pipeline, 
which is north, which is closer to the conflict. I also believe 
the gas is flowing in the Shah Deniz pipeline. Again, that runs 
south of the conflict area.
    Senator Bill Nelson. Is that the one that goes into Turkey?
    Mr. Fried. Yes, sir.
    Senator Bill Nelson. To the Mediterranean?
    Mr. Fried. The Shah Deniz pipeline and the Baku-Ceyhan oil 
pipeline go to Turkey, yes, sir.
    Senator Bill Nelson. So you think that's flowing?
    Mr. Fried. For the moment.
    Senator Bill Nelson. At the moment.
    This Georgia crisis, what did it do to European energy 
markets?
    Mr. Fried. In the immediate term, I do not believe that 
there was a spike in oil or gas prices. But obviously there is 
a great deal of concern that Georgia's ability to act as a 
reliable transit country has now been, at least for the moment, 
put in some question. I think as the situation stabilizes, as 
the EU observers go in, as the Russian forces withdraw, as they 
must do under the ceasefire, and as Georgia recovers, these 
concerns may abate.
    But it is certainly true that Europe is now more than ever 
focused on the need to diversify its energy sources and to 
avoid any one country having a monopoly of transit routes.
    Senator Bill Nelson. I certainly hope so.
    Mr. Chairman, may I ask one final quick question?
    General, from a military standpoint, since Russia now says 
it's allowed to keep peacekeepers, what do you expect 
peacekeeping activities to mean?
    General Paxton. Senator, we probably have a difference in 
philosophy and terminology between ``peacekeeping'' and 
``monitoring,'' if you will, because there has to be an 
agreement on both sides that there is a sustainable peace that 
is worthy of keeping right now. So we are in the monitor mode 
at this point, sir. We're looking to see that all six points of 
the arrangement that Sarkozy looked at are being held, which 
first and foremost is the cessation of hostilities. Second is a 
return to the pre-conflict positions, and it's then at that 
point that you can see what type of either peacekeeping or 
monitoring force you may need to establish the sustainment of 
those conditions, sir.
    Senator Bill Nelson. Do the diplomats have any different 
answer on that? I'm talking about what the Russians expect the 
peacekeeping activities to be.
    Mr. Fried. You raise a very interesting question. The six-
point ceasefire accord that General Paxton referred to requires 
all the Russian forces to leave Georgia, and it says also that 
the Russian peacekeepers that can remain in South Ossetia and 
Abkhazia have to be limited in number to those authorized under 
previous agreements.
    Now, today we read that the Russians are saying they're 
going to keep actual military forces, more or less brigade 
strength, in both territories. If that's true, it's 
inconsistent with the ceasefire. So we have to see what they 
think they mean.
    But we have supported President Sarkozy's six-point 
ceasefire agreement. From what we hear of what he achieved, 
what he achieved in Moscow yesterday, that sounds pretty good 
to us. But we want to see the Russians implement all of it and 
all of the six-point accord without renegotiating or 
reinterpreting its terms.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Levin [presiding]. Thank you, Senator Nelson.
    We'll have a 4-minute second round.
    Secretary Fried, you've earlier this morning said there's 
been no promise of NATO membership to Georgia. It seems to me 
that that is inconsistent with the Bucharest Summit statement, 
which is that ``We the NATO members agreed today that these 
countries will become members of NATO.'' It also seems to be 
inconsistent with the statement of Vice President Cheney in 
Georgia, where he said: ``Georgia will be in our alliance.'' 
Those sound like promises to me, but yet you say they have not 
been promised NATO membership.
    My question to you is, how do you reconcile your statements 
here with the statements of Vice President Cheney and the 
Bucharest Summit?
    Mr. Fried. I'm familiar, of course, with both statements. 
In my remarks I said that there has been no invitation extended 
to these countries and that's the context under which I meant a 
promise. There's been no invitation to these countries. There 
has been, both at the Bucharest Summit and a statement the Vice 
President reflected in his trip, that yes, some day Georgia and 
Ukraine will be members of the alliance. Before we get to the 
point of NATO actually extending an invitation to these 
countries, these countries have a lot of work to do. That's 
recognized by everyone. They have--the things they have to do 
are things only they can do.
    But what the NATO leaders agreed in Bucharest and what the 
Vice President was reflecting is a statement that these 
countries are on a track to membership if they make the reforms 
that they need to make and that they have not been consigned to 
a Russian sphere of influence or a grey zone. So that's how I 
would reconcile them. A perfectly fair question, Senator.
    Chairman Levin. The ifs were not in the statements that 
were made at the Bucharest Summit, I believe. They may have 
been, but they surely were not in the Vice President's 
statement. There were no ifs, ands, and buts. It wasn't that if 
they comply with the NATO conditions. It was they will become 
members of NATO.
    You're being much more cautious as to what you now are 
saying that NATO meant in the Bucharest Summit; if they comply 
with NATO's conditions, that then some day they will be invited 
to become a member of NATO. That's much more cautious than the 
Vice President was. So while you've made an effort to reconcile 
them, I don't think you fully succeeded in doing so, which is 
no fault of your own.
    Mr. Fried. I honestly don't see the difference. I 
understood the NATO--I was at Bucharest and I'm familiar with 
the leaders' statement, and it was a strong statement. It was 
the right statement to make, and that means that we are 
recognizing that these countries have a right to join the 
alliance, that they are on a membership track, that we have not 
recognized a Russian sphere of influence. That's how I see that 
statement and I believe that all recognize that both of these 
countries have much work to do, including them. They recognize 
it.
    Since Senator Warner is back, I would like to say that the 
questions he raised and that Senator Webb raised are perfectly 
valid questions and we have to think of them seriously, but it 
is important and remains important that we signal to these 
countries that their future with the alliance is a function of 
their own progress in making reforms and our own decisions, not 
a function of somebody else's veto.
    Mr. Edelman. Mr. Chairman, if I might just----
    Chairman Levin. It sounds like these are not, however, in 
your mouth unconditional commitments to membership. They are 
conditioned upon these countries meeting the membership 
requirements of NATO and they're conditioned upon a decision of 
NATO to then invite these countries to become members. Is that 
fair?
    Mr. Fried. It is very fair to say that NATO has not invited 
these countries to membership, to join the alliance. It is also 
fair to say that the Bucharest decision was not a NATO 
invitation and all the leaders understood that. It was a very 
strong and proper statement that these countries have the right 
and that their path to NATO membership will not be encumbered 
or blocked by an outside power. So yes, sir.
    Chairman Levin. I just want to be very clear on the one 
part you leave out when you repeat what I said, that membership 
invitations are also conditioned upon those countries meeting 
the membership requirements of NATO.
    Mr. Fried. Yes, sir.
    Chairman Levin. Okay.
    Mr. Fried. Without qualification.
    Chairman Levin. Fair enough.
    Mr. Edelman. Mr. Chairman, if I might rise to my 
colleague's assistance for just 1 second, not that he needs 
much from me. But I think it's fair to say that both the 
Bucharest statement and the Vice President's statement were 
statements of the alliance's intent to have these countries 
join. But all the members who have come in since the first 
round in 1997 at the Madrid Summit have had to go through a 
series of hoops to get there. In any event, even the heads, as 
powerful as they are, ultimately are not the dispositive voice 
because all of these countries, once an invitation has been 
accepted, have to go through the process of having their 
adherence to the treaty ratified by all of the parliaments, and 
indeed this body.
    Chairman Levin. It sounds like something less than 
unconditional promises to me. We'll let others make that 
judgment. The promise of the Vice President sounds 
unconditional: You will become a member of NATO. That is an 
unconditional commitment. What you're saying here is that the 
path that they're on is conditioned on a number of things 
occurring, and that strikes me as being very different.
    But I'm going to leave it at that because I want to ask you 
about the Patriot deployment to Poland, and I think this 
probably goes to you, Secretary Edelman, and maybe to General 
Paxton as well.
    Senator Warner. Let me ask one question.
    Chairman Levin. That's fine.
    Senator Warner. Thank you, Mr. Chairman.
    Earlier I asked about whether any U.S. forces had been put 
on alert and I think we have in the record a very clear 
response. But I'd like to have the parallel question; were 
there any requests from the president of Georgia or other high-
ranking officials for the U.S. to provide active military 
support for the Georgian military? [Pause.]
    Mr. Edelman. I was just taking counsel with my colleague 
because there were a variety of different conversations that 
went on. But I'm not aware of any requests. The chairman had a 
conversation with his Georgian counterpart. Secretary Gates had 
conversations with his Georgian counterpart and with President 
Saakashvili. I'm not aware of any requests for U.S. forces. 
There was a request for the U.S. to use its influence with 
Russia to get them to stop what they were doing.
    Senator Warner. That's understood.
    Secretary Fried?
    Mr. Fried. Same. I'm not aware of any.
    Senator Warner. General?
    General Paxton. Mr. Senator, the only specific request that 
we received on the military side--there was already a caveat in 
the deployment of the Georgian brigade in support of 
multinational force that was preexisting. It was in the event 
that they needed them for the defense of the homeland would we 
assist them--
    Senator Warner. That's understood.
    General Paxton. We had that one, sir.
    Senator Warner. General Flynn?
    General Flynn. No, sir. Just as my colleagues have stated.
    Senator Warner. I think one of the great values of this 
hearing--and I commend our chairman for first holding the 
hearing and then pressing on the issue of the conditions which 
Georgia might face if and when NATO considers their admission 
as members. Is a part of that process dwelling on the issue 
with a new member, are you going to assert caveats for the use 
of your forces to NATO? Is that part of the process? Because we 
have to come--I say ``we''; NATO has to come to grips with this 
issue of caveats. It's just totally unfair in my judgment for 
the American GI, the British tommy, the other soldiers of 
Denmark, Canada, and several others who are out there doing the 
heavy lifting and fighting and taking the risks in Afghanistan, 
then to be asked, if they were required under Article 5 to 
engage on the European continent in some sort of conflict, to 
be confronted once again with this issue of caveats.
    So is it part of the process to determine--I tell you what. 
I'd prefer you answer that for the record.
    [The information referred to follows:]

    There are no specific questions that an aspirant must answer 
related to caveats when seeking North Atlantic Treaty Organization 
(NATO) membership. However, as most NATO aspirants are troop 
contributing nations prior to joining NATO, we do receive a sense of 
what degree of caveat, if any, they will place on their forces. That 
said, caveats are not usually general policies, but reflect a 
government's political sensitivities or different perceptions of a 
specific operational mission. For instance, caveats that a nation 
defines for operations in International Security Assistance Force may 
not be the same as those for another operation. When nations seek 
parliamentary approval to deploy forces, the level of political support 
for the proposed operation is often reflected in the caveats placed on 
its forces. The Alliance may have to accept a nation's caveat as the 
``price'' for gaining political support for a particular operation.

    Mr. Edelman. We'll get you a fuller answer for the record, 
Senator Warner.
    First of all, I agree completely with your concerns about 
caveats. Secretary Gates shares them. I think all of us do.
    Senator Warner. But we have to do something about them.
    Mr. Edelman. Right.
    Senator Warner. I think we're fighting in Afghanistan as 
we're sitting here.
    Mr. Edelman. Right.
    Senator Warner. Asking of these men and women of the armed 
forces to take these risks.
    Mr. Edelman. I think it's a point well taken. I think no 
one can enter the alliance with a caveat about enforcing 
Article 5. That I think is very clear, and I'm not aware of any 
nation that's adhered to the alliance that has done that.
    The issue brings itself forward when we deal with things 
like Stabilization Force and Kosovo Force and International 
Security Assistance Force. That's where we have the problem.
    Mr. Fried. I'd also like to mention, sir, that many of the 
newer NATO Allies have contributed combat forces in Iraq and 
Afghanistan without caveats and have done a lot of hard 
fighting. The Poles, when we asked, put in a combat battalion, 
combat helicopters----
    Senator Warner. You're correct.
    Mr. Fried.--to go to the east, where it's hot. So they have 
pulled--a lot of the allies have pulled their weight.
    Senator Warner. Denmark should be added to that group.
    Mr. Fried. Denmark, Canada, The Netherlands in the south. A 
lot of very tough fighting. The Rumanians, Estonians. So Allies 
before and after 1989 have come in to do the hard stuff.
    Senator Warner. But as the chairman in his questioning 
said, there's been a lot of bravado and statements made in 
support of Georgia, but to the average citizen that translates 
into the potential use of U.S. forces to carry out that 
bravado--we don't want to end up like a paper tiger, talking 
about how strongly we're going to support them, but when it 
comes down to a combat situation, understandably, we'd have to 
say differently.
    We have to be extremely cautious in these situations, 
because they're going to come up from time to time. Russia is, 
as we say, feeling its oats right now and we don't know where 
the next issue may come up. But let us learn from this one how 
to be very careful in our comments with regard to the support 
we're going to give that nation that may be afflicted by 
another one of these problems.
    Thank you, Mr. Chairman.
    Chairman Levin. Your answer to the question whether if 
Georgia were a member of NATO we would have been obligated to 
come to their defense was unambiguous. The answer was yes. Is 
that answer unambiguous and unconditional, put aside Georgia 
for a moment. But if a country that is in NATO initiates a 
military action against a non-NATO neighbor, against the advice 
of all of the NATO members, and then that neighbor attacks the 
NATO member with disproportionate force, is NATO obligated 
under Article 5 to come to the defense of the NATO member that 
initiated the ground activity against the advice of NATO?
    Mr. Fried. Article 5----
    Chairman Levin. Could you give me a yes or no on that, or a 
maybe, and then explain your answer?
    Mr. Fried. Article 5----
    Chairman Levin. I think your answer to that last question 
is no, that you can't give me a yes, no, or maybe. Is that 
right?
    Mr. Fried. Mr. Chairman, you've offered a hypothetical and 
it's always difficult and usually dangerous to try to answer 
hypotheticals.
    Chairman Levin. So the answer is maybe.
    Mr. Fried. Article 5 has to mean what it says, which is 
that essentially an attack on one is an attack on all.
    Chairman Levin. It says more than that, doesn't it?
    Mr. Fried. If a nation is attacked----
    Chairman Levin. It has to be acting in their defense, self-
defense. My question was if they initiate a ground attack 
against a non-NATO neighbor and that neighbor responds with 
disproportionate force, does that automatically trigger Article 
5? That's my question. Where NATO had given advice, don't 
attack that non-NATO neighbor, just to make it harder for you.
    Mr. Fried. Oh, it's hard enough.
    As I said, hypotheticals are difficult and dangerous. The 
question you ask is a serious one and NATO is not an aggressive 
alliance. Article 5 is not intended to support aggression. 
There has not been a case of a NATO member committing 
aggression against its neighbors. One of the criteria for NATO 
membership is that countries have good relations with their 
neighbors. That's one of the things we've looked at since the 
NATO enlargement process began in the early 1990s.
    So that's by way of answering what I think may be a tough 
question, but it's not an unfair one. It's a relevant one. So 
we don't look at Article 5 as some kind of license for 
irresponsible behavior, and so far in the history of NATO there 
have not been these sorts of cases.
    Chairman Levin. In your judgment, was Georgia's action 
against our advice irresponsible?
    Mr. Fried. I think there will be time once we have more 
detailed information of what exactly happened on August 7 to 
make that judgment. They certainly took this action against our 
advice, that's true. They believed at the time, at least they 
said at the time, that they thought the Russian forces were 
coming through the Roki Tunnel and they were in imminent 
danger. I'm unable to tell you now whether or not this was 
true, but I know that it was true that they said so, because 
they said so to me.
    Senator Warner. Thank you.
    This question, as I mentioned, is for either Secretary 
Edelman or General Paxton. It relates to the Patriot battery 
that is going to be deployed in Poland. My question is, is this 
going to be a fully operationally effective Patriot battery?
    Mr. Edelman. I can start and then General Paxton may want 
to fill in some of the technical detail, Mr. Chairman. I think 
our undertaking is to provide a rotational presence with a 
battalion, a battalion-plus really--it's an engagement package, 
I think. We will have a presence for each quarter for some 
period of time while we engage in some training activities. I 
think the Poles have indicated they may in the future want to 
make purchases of their own Patriots, and I think that's what 
our intent is.
    But I don't think, at least in the initial stages, it will 
be a fully operational capability 24/7.
    Chairman Levin. So it's intended, at least at this stage, 
that this be a rotational training capability, is that correct?
    General Paxton. That's basically correct, Mr. Senator.
    Chairman Levin. The Poles understand that, that this is not 
going to be a fully operationally effective battery? Do they 
understand that?
    Mr. Edelman. Initially, and I think that our hope is that 
ultimately, as I said, with a combination of training and 
purchases, they will have a full capability at some point in 
the future.
    Chairman Levin. All right.
    Is NATO scheduled to take up applications of Ukraine and 
Georgia in December for a MAP? If so, has that plan been filed, 
those plans been filed by those two countries?
    Mr. Fried. Yes, sir. A MAP is on the agenda for NATO to 
consider at the December foreign ministerial.
    Chairman Levin. So has a MAP been filed that you know of?
    Mr. Fried. Well, these----
    Chairman Levin. Are they prepared, and if so by whom?
    Mr. Fried. These countries have asked for it, and the MAP 
is essentially a work program that develops over time of what 
these countries have to do to qualify to meet NATO standards.
    Chairman Levin. So there's no draft plan for either country 
that is at NATO?
    Mr. Fried. I don't believe so. But these plans are 
developed between the country and NATO staff, and in our 
experience they're very rigorous. They go on for some time and 
they have been successful in the past.
    Chairman Levin. As of this time, you don't know whether or 
not these plans have been completed for consideration by NATO?
    Mr. Fried. I don't know what NATO's decision will be in 
December.
    Chairman Levin. No, not decision. Whether the plan that 
they're going to look at has been drafted.
    Mr. Fried. You mean the work program?
    Chairman Levin. Whatever the plan is.
    Mr. Fried. I don't know whether it has been completed. We 
have experience with this in the past with respect to Albania, 
Croatia.
    Mr. Edelman. Mr. Chairman, my ever-alert staff has pointed 
out to me that I misspoke when I answered your earlier 
question. It's a battery plus, not a battalion plus. I stand 
corrected.
    Chairman Levin. Thank you.
    What we're going to do now is move to what I think will be 
a brief executive session. We thank our witnesses for their 
being here, for their information, and we will stand adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
               status of health care services in georgia
    1. Senator Levin. Mr. Fried, I have heard reports that 17 United 
States Agency for International Development health clinics, ambulatory 
facilities, or dispensaries were either damaged or destroyed during the 
conflict in Georgia. Some facilities were burned or looted. With a 
reported 70,000 refugees countrywide, do we know what kind of impact 
the conflict has had on health services for these individuals?
    Mr. Fried. There are 17 primary health clinics in the ``Gori to 
Tshkinvali'' corridor; however, none of them have been funded by USAID. 
Many of those clinics were renovated in recent years by the World Bank. 
The Georgian Minister of Health, Alexander Kvitashvili, confirmed that 
one of these clinics was burned, five were looted, three were damaged 
by fighting, and the remaining eight clinics were untouched. Residents 
in areas covered by the nine nonfunctional primary health clinics are 
receiving medical care from mobile clinics operated by the 
International Committee of the Red Cross.
    On August 20, an interagency team completed an assessment of 
medical conditions in Gori which reported no major health or 
nutritional problems. The water supply was reportedly safe and the 
conflict had not severely damaged the health care system. Following the 
provision of some medical supplies soon after the conflict began, the 
Georgian Ministry of Labor, Health, and Social Affairs stated no 
additional medical supplies were necessary to address immediate needs.
    Georgian health authorities have confirmed that all internally 
displaced persons (IDP) centers continue to have dedicated primary care 
providers who can identify, treat, and refer patients to primary care 
facilities or hospitals. IDPs are receiving health services free of 
charge in government health facilities or through programs operated by 
nongovernmental organizations.

    2. Senator Levin. Mr. Fried, how many individuals were displaced by 
the invasion?
    Mr. Fried. The United Nations High Commissioner for Refugees 
(UNHCR) estimates that 192,000 individuals fled their homes due to the 
violence: 127,000 displaced from South Ossetia and Abkhazia into other 
parts of Georgia; 30,000 within the separatist region South Ossetia; 
and an additional 35,000 to Russia. Recent UNHCR estimates indicate 
that significant numbers of displaced Georgians have returned to their 
homes; however, 54,000 individuals will likely not be able to return to 
their homes in the near future.

    3. Senator Levin. Mr. Fried, how many people were affected by the 
destruction of the health clinics?
    Mr. Fried. Neither the Georgian Government nor international 
organizations know exactly how many people were affected by the 
destruction of health facilities. We can safely assume, however, that 
all people living in Kurta, Tshkinvali, and Gori, where Russian 
military action damaged or destroyed major facilities, were 
significantly affected for varying periods of time. Before the conflict 
began, the total population of these three cities was approximately 
96,000. (Gori - 49,000, Tskhinvali - 42,000, Kurta - 5,000)

    4. Senator Levin. Mr. Fried, how many hospitals were damaged or 
destroyed?
    Mr. Fried. The Georgian Minister of Health reported to the U.N. 
Office for Coordination of Humanitarian Affairs that the hospitals in 
Kurta, South Ossetia, and Tkviavi near Gori were completely destroyed. 
The World Health Organization reports that the hospital in Tskhinvali, 
as well as 49 health stations, which comprise approximately 60 percent 
of the health network in South Ossetia, suffered damages. This hospital 
is currently nonfunctional, although it is unclear whether this is due 
to physical damage to the hospital, or because the hospital staff have 
fled the region.

    5. Senator Levin. Mr. Fried, have refugees lost access to primary 
care as a result of the destroyed or damaged facilities?
    Mr. Fried. Georgian health authorities have confirmed that all IDP 
centers continue to have dedicated primary care providers who can 
identify, treat, and refer patients to primary or hospital level 
services. IDPs are receiving health services free of charge in 
government health facilities or through programs operated by 
nongovernmental organizations.

    6. Senator Levin. Mr. Fried, how many emergency facilities were 
damaged or destroyed?
    Mr. Fried. The two emergency facilities in Tskhinvali and Kunta--
the main hospitals in each of these cities--were completely destroyed. 
The main hospital in Gori, which also contains an emergency facility, 
was partially damaged and was closed for two days.

    7. Senator Levin. Mr. Fried, how many people were affected by this 
loss of services?
    Mr. Fried. Neither the Georgian Government nor international 
organizations know exactly how many people were affected by the 
destruction of the emergency facilities. All the people living in Kurta 
and Tshkinvali, where major facilities were severely damaged or 
destroyed, were significantly affected for varying periods of time. 
Prior to the conflict, the total population of these two cities was 
approximately 47,000. (Tskhinvali - 42,000, Kurta - 5,000)

    8. Senator Levin. Mr. Fried, how will the U.S. influx of 
humanitarian aid be used to provide health services on the ground, 
particularly in the Gori area?
    Mr. Fried. The Government of Georgia, in collaboration with U.S. 
Government-funded international organizations and nongovernmental 
organization partners, drafted a strategy that was incorporated in the 
U.N. Country Team's Emergency Flash Appeal for Georgia. The top 
priorities include: assessing damage to health infrastructure; 
monitoring health threats; supporting the Georgian Ministry of Health 
in its efforts to coordinate responses to the conflict-affected 
population; providing medical assistance in areas that lost access to 
the health care system; supporting the reestablishment of essential and 
emergency medical, public health, and environmental health services; 
and addressing gaps in the delivery of humanitarian supplies.
    The initial U.S. response to the crisis included distributions of 
medical supplies, equipment, and medicines to multiple health 
facilities around Georgia, including in Gori and other towns near the 
conflict zone. Many people fled initially to Tbilisi and other non-
occupied areas, but have now returned to their home areas, although a 
significant number, especially those from South Ossetia, will not be 
able to do so in the immediate future. We continue to work closely with 
the Government of Georgia to assess current health care needs.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
                             cyber warfare
    9. Senator Pryor. Mr. Edelman and Mr. Fried, Georgian authorities 
have claimed that on the day before Russia's military offensive into 
Georgia, entities inside Russia launched a cyber distributed denial of 
service attack against Georgian government Web sites, including the 
Ministry of Foreign Affairs, and effectively interrupted critical 
communications operations.
    The Air Force's Chief of Staff and Secretary have recently 
implemented a delay in the Initial Operational Capability of Air Force 
Cyber Command (AFCYBER), as well as the basing and organizational 
arrangement decisions for AFCYBER Headquarters, in an attempt to 
provide additional time to consider emerging issues and opportunities 
to consider outside authorities commenting on related organizations. 
What lessons have been learned from the Georgia-Russia conflict 
regarding cyber operations and how can we apply this information to our 
broader national security objectives regarding this new threat?
    Mr. Edelman. The cyber assault on Georgian Government and media Web 
sites was coincident with the Russian Federation attack into South 
Ossetia on 8 August 2008. Attacks included blocking of Internet traffic 
to and from Georgia, distributed denial of service attacks, and 
defacement of government and media Web sites. Unlike the 2007 cyber 
offensive against Estonia, which targeted and crippled the entire 
Estonian national infrastructure, the attacks against Georgia targeted 
government information outlets (Ministry of Foreign Affairs, Ministry 
of Defense, and the President's Web site), as well as Georgian media 
organizations.
    The attacks against Georgia highlight the difficulty of attribution 
in cyberspace. The U.S. Government has not assigned responsibility for 
the attacks. The source could be the Government of Russia, Russian 
criminal elements, hacktivists, or any other entity or group; 
definitive attribution may never be known. Regardless of who instigated 
the attacks, the cyber activity added to the concerns and burdens of 
the Government of Georgia while it was engaged in countering a ground 
assault into its territory.
    Despite the source or effects of the attacks, the lesson for the 
United States and for the Department of Defense (DOD) in particular is 
that we must plan and prepare for a cyber component in all future 
conflicts, both military and political. DOD must be prepared to defend 
against, mitigate the effects of, and operate through cyber attacks by 
implementing robust information assurance programs and strong network 
resiliency. We must have the ability to survive and reconstitute during 
and after cyber attacks. DOD continues to monitor new cyber threats and 
vulnerabilities to our networks in order to develop and implement 
appropriate countermeasures and network security solutions.
    We can assume that adversaries will target critical infrastructure 
and information systems, particularly vulnerabilities that exist in the 
private sector or in the non-military public sector. The Comprehensive 
National Cybersecurity Initiative (CNCI), led by the Department of 
Homeland Security, anticipates many issues highlighted in the Georgian 
and Estonian cyber experiences. Implementation of the CNCI across the 
Federal enterprise will enhance our National cybersecurity posture. DOD 
is a full partner in this effort.
    Mr. Fried. The denial of service attacks in Georgia and defacement 
of Georgian government Web sites prior to overt military hostilities 
with Russia highlight a trend in which cyber attacks accompany high-
profile international disputes or conflicts. Goals seem to vary, with 
punishment the motive in the case of Estonia and disruption of 
government-citizen communications the objective in Georgia. The United 
States has assigned no responsibility to any entity for the attacks on 
Georgia and we recognize the underlying difficulty of attributing 
identity to attackers in cyberspace. One key response is to help defend 
networks.
    In response to the attacks in Georgia, three countries--Poland, 
Estonia, and Canada--sent Computer Emergency Response Teams (CERTs) to 
assist the Georgian authorities in assessing damage and making 
recommendations to prevent future attacks. NATO sent a cyber expert to 
offer assistance, and in addition, NATO activated cyber security 
mechanisms it developed in response to standards set forth by Allied 
leaders at NATO's Summit in Riga in November 2006. The damage was 
minimal, and Georgia anticipates no long-term effects of this attack.
    The United States is keenly aware of the increasing threat, and 
under the President's Comprehensive National Cybersecurity Initiative 
(CNCI) we are taking systematic steps to significantly enhance our 
defensive posture. With Congress's support, we are working with 
diligence to implement the CNCI throughout the Federal Government.
    Moreover, we are working in a variety of ways to organize and 
strengthen the capabilities of our friends and allies to defend 
against, mediate, and reconstitute following such cyber events. The new 
NATO Cyber Defense Policy, which the United States championed after the 
May 2007 attacks on Estonia, put in place those policies and processes 
that enabled NATO to come to Georgia's immediate assistance. Similarly, 
we are working with our closest partners and allies to develop 
complementary strategies to deal with cyber threats worldwide.

                        georgia train and equip
    10. Senator Pryor. Mr. Edelman and Mr. Fried, on April 29, 2002, 
DOD announced the beginning of the Georgia Train and Equip Program 
(GTEP). This program implemented President Bush's decision to respond 
to the Government of Georgia's request for assistance to enhance its 
counterterrorism capabilities. This effort complemented other 
counterterrorism efforts around the globe and increased stability in 
the Caucasus. The 20-month, $64 million plan involved a maximum of 150 
U.S. soldiers, and was expected to be duplicated in 20 other countries. 
The program's goal was to build strong and effective staff 
organizations capable of creating and sustaining standardized operating 
procedures, training plans, operational plans, and a property 
accounting system. Tactical training was provided sequentially and 
consisted of approximately 100 days per unit. The goal of the tactical 
program is to instruct Georgian battalions in light infantry tactics, 
to include platoon-level offensive and defensive operations and basic 
air mobile tactics. How were the skills and equipment that the Georgian 
military acquired through GTEP useful for fighting against the 
Russians?
    Mr. Edelman. Skills and equipment acquired from the GTEP was of 
little utility, nor was it intended to be. The program, and its 
successor, were for counterinsurgency and counterterrorism operations, 
not force on force. GTEP and its successor was useful for its intended 
purpose, as the program supported Georgian soldiers, eventually 
numbering up to 2,000, deploying alongside U.S. forces in global war on 
terror operations.
    GTEP (April 2002-December 2003) was designed to give Georgia a 
light infantry counterinsurgency/counterterrorism capability to re-
establish its sovereignty over its territory. The program was initiated 
after Russian requests for Georgia to secure lawless elements in the 
Pankisi Gorge. The program trained basic light infantry soldier skills 
such as small arms marksmanship, land navigation, first aid, and squad 
level offensive and defensive tactics. From this foundation, it built 
up to platoon level skills and finished with company level offensive 
and defensive operations. The unit trained in GTEP (1st Brigade) was 
deployed to Iraq until August 11, 2008.
    GTEP did not provide combined arms operations training. It was 
specifically designed not to enable or encourage the Georgians to use 
force to resolve the separatist conflicts. The equipment provided was 
basic arms, equipment, and clothing to operate as light-infantry 
battalions. Based on our understanding of events, skills gained during 
GTEP training did not benefit the Georgians in any meaningful way in 
their fight against the Russians. As for equipment, U.S. supplied body 
armor and Kevlar helmets likely limited Georgian casualties. The U.S. 
provided Harris radios were not used to their potential as the 
Georgians command structure opted to use cell phones for command and 
control.
    Mr. Fried. The GTEP trained and equipped light infantry battalions 
of the Georgian 1st Brigade in basic combat skills up to the company 
level from April 2002 to December 2003. GTEP was designed to provide 
Georgia a light infantry counterinsurgency/counterterrorism capability 
to re-establish central government control over lawless regions of the 
country; it did not give Georgia the capability to resolve its 
separatist conflicts by military means, nor to withstand a Russian 
invasion.
    The program was initiated after Russian demands for Georgia to 
secure the Pankisi Gorge, where Chechen fighters had taken advantage of 
weak central-government control to establish a presence. The United 
States European Command provided training and equipment to prepare the 
Georgian Armed Forces to conduct counterterrorism operations and 
provide peacekeeping forces that could serve along-side U.S. and/or 
NATO forces. The program trained basic light infantry soldier skills 
such as small arms marksmanship, land navigation, first aid, and squad 
level offensive and defensive tactics. GTEP did not provide combined-
arms operations training. It was specifically designed not to enable or 
encourage the Georgians to use force to resolve the separatist 
conflicts. The equipment provided was basic arms, equipment, and 
clothing to operate as light-infantry battalions. As for equipment, 
U.S.-supplied body armor and Kevlar helmets likely limited Georgian 
casualties. The training provided matched the required practical 
tactics, techniques, and procedures to conduct basic infantry tasks.
    This program created basic-trained infantry soldiers that could 
perform basic light-infantry tactics up to the company level. The unit 
trained in GTEP (1st Brigade) was deployed to Iraq until August 11 and 
was not involved in combat operations during the August war with 
Russia.

    [Whereupon, at 12 p.m., the committee adjourned.]

                                 <all>
</pre></body></html>
